APPENDIX
Court of Appeals Opinion
(7th Cir. Oct. 8, 2020) .............................................................................. la
District Court Opinion
(W.D. Wis. Sept. 21, 2020) .................................................................... 33a

la
1a
Case: 20-2835

Document: 76

Filed: 10/08/2020

Pages:32

]n H1e

3ltnften jtates <!Inurt of Appeals
1lfor th£ j£iI£nth @irruit

Nos . 20-2835 & 20-2844
DEMOCRATIC N ATIONAL COMMITTEE,

et al.,

Plain tiffs-Appellees,

v.
MARGE

BOSTELMANN,

ELECTIONS COMMISSION,

SECRETARY

OF

THE

W ISCONSIN

et al.,

Defendants,

and
WISCONSIN

STATE

LEGISLATURE,

R EPUBLICAN

N ATIONAL

COMMITTEE, and REPUBLICAN p ARTY OF WISCONSIN,

Intervening Defendants-Appellants.

Appeals from the United States District Court
for th e Western District of Wisconsin.
Nos. 20-cv-249-wmc, et al. - William M. Conley, Judge.

SUBMITTED OCTOBER 6, 2020 - D ECIDED OCTOBER 8, 2020

Before EASTERBROOK, ROVNER, and ST. E VE,

Circuit Judges.

P ER CURIAM. O n September 29, 2020, we issued an order
den y ing th e motion s for a stay in th ese appeals, because we

2a
Case: 20-2835

2

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

concluded that Wisconsin's legislative branch has not been
authorized to represent the state's interest in defending its
statutes. On October 2, in response to a request for reconsideration, we certified to the Supreme Court of Wisconsin the
question "whether, under Wis. Stat. §803.09(2m), the State
Legislature has the authority to represent the State of Wisconsin's interest in the validity of state laws." That court accepted the certification and replied that the State Legislature
indeed has that authority. Democratic National Committee v.
Bostelmann, 2020 WI 80 (Oct. 6, 2020). In light of that conclusion, we grant the petition for reconsideration and now address the Legislature's motion on the merits. (The other intervenors have not sought reconsideration.)
As we explained last week, a district judge held that
many provisions in the state's elections code may be used
during the SARS-CoV-2 pandemic but that some deadlines
must be extended, additional online options must be added,
and two smaller changes made. 2020 U.S. Dist. LEXIS 172330
(W.D. Wis. Sept. 21, 2020). In particular, the court extended
the deadline for online and mail-in registration from October
14 (see Wis. Stat. §6.28(1)) to October 21, 2020; enjoined for
one week (October 22 to October 29) enforcement of the requirement that the clerk mail all ballots, but only for those
voters who timely requested an absentee ballot but did not
receive one, and authorized online delivery during this time;
and extended the deadline for the receipt of mailed ballots
from November 3 (Election Day) to November 9, provided
that the ballots are postmarked on or before November 3.
Two other provisions of the injunction (2020 U.S. Dist. LEXIS
172330 at *98) need not be described.

3a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

3

The State Legislature offers two principal arguments in
support of a stay: first, that a federal court should n ot change
the rules so close to an election; second, that political rather
than judicial officials are entitled to decide when a pandemic
justifies changes to rules that are otherwise valid. See Luft v.
Evers, 963 F.3d 665 (7th Cir. 2020) (sustaining Wisconsin's
rules after reviewing the election s code as a wh ole). We
agree w ith both of those arguments, which means that a stay
is appropriate under the factors discussed in Nken v. Holder,
556 U.S. 418,434 (2009).
For many years the Supreme Court has insisted that federal courts not change electoral rules close to an election
date. One recent instance came in an earlier phase of this
case. After the district judge directed Wisconsin to change
some of its rules close to the April 2020 election, the Supreme
Court granted a stay (to the extent one had been requested)
and observed that the change had come too late. Republican
National Committee v. Democratic National Committee, 140 S. Ct.
1205, 1207 (2020). One of the decisions cited in that opinion
is another from Wisconsin: Frank v. Walker, 574 U.S. 929
(2014). In Frank this court had permitted Wisconsin to put its
photo-ID law into effect, staying a district court's injunction.
But the Supreme Court d eemed that change (two months
before the election) too late, even though it came at the
state's behest. (Frank did not give reasons, but Republican National Committee treated Frank as an example of a change
made too late.) Here the district court entered its injunction
on September 21, only six weeks before the election and less
than four weeks before October 14, the first of the deadlines
that the district cou rt altered. If the orders of last April, and
in Frank, were too late, so is the district court's September

4a
4a
Case: 20-2835

4

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

order in this case. See also Purcell v. Gonzalez, 549 U.S. 1
(2006).
The Justices h ave deprecated but not forbidden all
change close to an election . A last-minute event may require
a last-minute reaction. But it is not possible to describe
COVID-19 as a last-minute event. The World H ealth Organization declared a pandemic seven months ago, the State of
Wisconsin closed many businesses and required social distancing last March, and the state h as cond u cted two election s (April and Augu st) during the pandemic. If the judge
had issu ed an order in May based on April's experien ce, it
could n ot be called untimely. By waiting until September,
however, the district court acted too close to the election.
The district judge also assumed that the design of adjustments du ring a pandemic is a ju dicial task. This is doubtful, as Justice Kavanaugh observed in connection with the
Supreme Court's recent stay of another injunction issu ed
close to the upcoming election. Andino v. Middleton, No.
20A55 (U.S. Oct. 5, 2020) (Kavanaugh, J., concurring). The
Supreme Court has h eld that the design of electoral procedu res is a legislative task. See, e.g., Rucho v . Common Cause,
139 S. Ct. 2484 (2019); Burdick v. Takushi, 504 U.S. 428 (1992).
Voters h ave h ad many mon ths since March to register or
obtain absen tee ballots; reading the Constitution to extend
deadlines n ear the election is difficult to justify wh en the
voters h ave h ad a lon g time to cast ballo ts while preserving
social distancing. The pandemic h as h ad consequen ces (and
appropriate governmental responses) that change w ith time,
but the fundamental proposition that social distancing is
necessary h as no t changed since March. The district court
did n ot find that any person w ho wants to avoid voting in

5a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

5

person on Election Day wou ld be unable to cast a ballot in
Wisconsin by planning ahead and taking ad vantage of the
opportunities allowed by state law. The problem that concerned the district judge, rath er, was the d ifficulty that cou ld
be en countered by voters wh o do n ot plan ahead and wait
until the last day that state law allows for certain steps. Yet,
as the Su preme Cou rt observed last April in this very case,
voters wh o wait until the last minute face problem s with or
without a pandemic.
The Court has consistently stayed orders by which federal judges h ave used COVID-19 as a reason to displace the
decision s of the policymaking branches of governmen t. It
has stayed judicial orders about elections, prison managemen t, and the closu re of bu sinesses. We have already mentioned Andino and Republican National Committee. See also
Clarno v. People Not Politicians Oregon, No. 20A21 (U.S. Aug.
11, 2020) (staying an injunction th at had altered a state's signature and deadline requ iremen ts for placing initiatives on
th e ballot during the pandemic); Merrill v. People First of Alabama, No. 19A1063 (U.S. Ju ly 2, 2020) (staying an injunction
that h ad suspen ded some state anti-frau d rules for absen tee
voting du ring the pandemic); Barnes v. Ahlman, 140 S. Ct.
2620 (2020) (staying an order that overrode a prison warden's decision about h ow to cope with the pandemic); Little
v. Reclaim Idaho, 140 S. Ct. 2616 (2020) (staying an injunction
that changed the ru les for ballot initiatives du ring the p andemic); South Bay United Pentecostal Church v. Newsom, 140 S.
Ct. 1613 (2020) (declining to suspend state ru les limiting
public gatherings du ring the pandemic).
Deciding h ow best to cope with d ifficulties caused by
disease is principally a task for the elected branches of gov-

6a

Case: 20-2835

6

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

ernment. This is one implication of Jacobson v. Massachusetts,
197 U.S. 11 (1905), and has been central to our own decisions
that h ave addressed requests for the Judicial Branch to su persede political officials' choices about how to deal with the
pandemic. See, e.g., Tully v. Okeson, No. 20-2605 (7th Cir. Oct.
6, 2020) (rejecting a contention that the Constitution entitles
everyon e to vote by mail d uring a pandemic); Illinois Republican Party v. Pritzker, No. 20-2175 (7th Cir. Sep t. 3, 2020) (rejecting a constitutional challenge to limits on the size of political gatherings d uring the pandemic); Peterson v. Barr, 965
F.3d 549 (7th Cir. 2020) (reversing an injunction that had altered procedu res for executions during the pandemic); Morgan v. White, 964 F.3d 649 (7th Cir. 2020) (social distancing
d uring a pandemic does n ot require, as a constitutional
matter, a change in the rules for qu alifying referenda for the
ballot); Elim Romanian Pentecostal Church v. Pritzker, 962 F.3d
341 (7th Cir. 2020) (rejecting a constitutional challen ge to
lim its on the size of religious gatherings du ring the pandemic). Cf. Mays v. Dart, No. 20-1792 (7th Cir. Sept. 8, 2020) (reversing, for legal errors, an injunction that specified how
prisons must be managed during the pandem ic).
The injunction issu ed by the district court is stayed pending fina l disposition of these appeals.

7a
7a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

7

Circuit Judge, dissenting. In the United States of
America, a beacon of liberty founded on the righ t of the people to rule themselves, n o citizen sh ou ld h ave to choose betw een her health and her right to vote. An election system designed for in-person voting, coupled w ith an uncontrolled
pandemic that is unpreceden ted in our lifetimes, confronts
Wisconsin voters w ith that very choice. In the April 2020 election, Wisconsin voters sou ght overwhelmingly to protect
themselves by voting absentee. Yet at least 100,000 of them,
despite timely requests, did n ot receive their ballots in time to
return them by election day, as the Wisconsin election code
requires. Only as a resu lt of judicial intervention in the April
2020 election w ere some 80,000 absentee ballots, their return
delayed by an overw h elmed election apparatus and Postal
Service, rescued from the trash bin. Thousands of additional
voters who never received their ballots were forced to stand
in line for hours on election day w aiting to vote in person,
risking their well-being by doing so.
R OVNER,

For purposes of the upcoming November election, the district court ordered a limited, reasonable set of modifications
to Wisconsin's election rules designed to address the very
problems that manifested in the April election and to preserve
the preciou s right of each Wiscon sin citizen to vote. Its two
most important provision s are comparable to those this very
court sustained six months ago. The Wisconsin Election Commission, whose members are appointed by the Legislature
and the Governor and are charged w ith administering the
State's elections, has acceded to that injunction. It is n ot here
complaining of any undue burden imposed by the d istrict
court's decision or any risk of voter confusion . Only the Wisconsin Legislature, wh ich has chosen to make no accommodations in the election rules to account for the bu rdens created

Sa
8a
Case: 20-2835

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

8

by the pandemic, seeks a stay of the injunction in furtherance
of its own power.
Today, by granting that stay, the court adopts a hands-off
approach to election governance that elevates legisla tive prerogative over a citizen's fundamental right to vote. It does so
on two grounds: (1) the Supreme Court's Purcell doctrine, as
exemplified by the Court's recent sh adow-docket rulings, in
the m ajority's view all but forbids alteration s to election rules
in the run-up to an election ; and (2) in times of pandemic, revisions to election rules are the province of elected state officials rather than the judiciary . With respect, I am not convinced that either rationale justifies a stay of the district
court's careful, thorou gh, and w ell-grounded injunction. At a
time when judicial intervention is most n eeded to protect the
fundamental right of Wisconsin citizens to choose their
elected representatives, the court declares itself powerless to
do anything. This is inconsistent bo th w ith the stated rationale
of Purcell and w ith the Anderson-Burdick framework, w hich
recognizes that courts can and must interven e to address unacceptable burden s on the fundamental right to vote. The inevitable result of the court's decision today w ill be that many
thou sands of Wisconsin citizens w ill lose their right to vote
despite doing everything they reasonably can to exercise it.
This is a travesty.
On the facts of the case, I see n o deviation from Purcell. In
all of two sentences, Purcell articulated n ot a rule but a caution: take care w ith last-minute ch anges to a state's election
rules, lest voters become confused and discou raged from voting. Purcell v. Gonzalez, 549 U.S. 1, 4~5, 127 S. Ct. 5, 7 (2006)

9a
Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages:32

9

(per curiam).1 In a series of stay rulings on its shadow docket
since that d ecision, the Su prem e Court h as evinced a pronounced skepticism of judicial interven tion in the weeks prior
to an election, e.g. Andino v. Middleton, - S. Ct. - , 2020 WL
5887393 (U.S. Oct. 5, 2020), but h as pu t little meat on the bones
of what has become known as the Purcell doctrine. See Nicholas Stephanopou los, Freeing Purcell from the Shadows, Election
Law Blog (Sept. 27, 2020) (h ereinafter, "Freeing Purcell")
("[d]espite all of this activity, the Purcell principle remains remarkably opaque'')2. Perhaps we can say at this point that
Purcell and its progeny establish a presumption against judicial intervention close in time to an election . See id. ("This is
the reading m ost con sistent with Purcell's actual language.").
But h ow near? As to what types of changes? Overcome by
what showing? These and other question s remain unanswered .
The Supreme Court's stay decision in this case regarding
the April 2020 election did little to clear things up. This court
had den ied a stay as to two changes th e district cou rt ordered
for purposes of that spring election: extending the dead line
for requesting an absen tee ballot, and exten ding the deadline
for receipt of completed absentee ballots. Dem. Nat'l Com. v.
Bostelmann, 2020 WL 3619499, at *1 (7th Cir. April 3, 2020). The
Wisconsin Legislature appealed on ly the ballot-receipt deadline. Alth ough the Court had critical things to say abou t th e
"Court orders affecting election s, especially conflicting orders, can themselves result in voter confusion and consequent incen tive to remain away
from the polls. As an election d raws closer, that risk will increase." Purcell,
549 U .S. at 4-5, 127 S. Ct. at 7.
1

2

Available at https://electionlawblog.org/?p=l15834.

10a
Case: 20-2835

10

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

last-minute change in rules ordered by the district court's injunction (in part because the district court had ordered relief
beyond wh at the plaintiffs themselves had request ed), it then
proceeded to impose one of its own , ordering that absen tee
ballots must either be delivered or postmarked on or before
election day in order to be counted. Repub. Nat'l Com. v. Dem.
Nat'l Com., 140 S. Ct. 1205, 1207, 1208 (2020). The Court was
also at pains to emphasize that it was reserving judgment as
to "whether other reforms or modifications in election procedures in light of COVID-19 are appropriate." Id. at 1208. Apart
from that, the Supreme Court's pattern of staying similar sorts
of injunction s in recent months is lon g on signaling but short
on con crete principles that lower courts can apply to the specific facts before them .
Until the Suprem e Court gives u s m ore guidance than Purcell and an occasional sentence or two in its stay rulings have
provided, all that lower courts can do-and, I submit, must
do- is carefully evaluate emergent circumstances that
threaten to interfere with the right to vote and conscientiou sly
evaluate all of the factors that bear on the propriety of judicial
intervention to address those circumstances, including in particular the possibility of voter confusion .
A variety of factors should inform a court's decision
whether or not to modify election rules. See Freeing Purcell. On
balance, these factors support rather than undermine the district court's decision h ere.
The first consideration is whether the p roposed modifications might confuse voters. That risk is minimal here. Only
two of the five modification s that Judge Conley ordered alter
what is expected of voters: the extension of the deadline to
register online or by mail, and the extension of the deadline

lla
11a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

11

for receipt of absen tee ballots. Both of these modifications redound to the benefit of voters, and certainly do not lay a trap
for the unwary . We upheld (i.e., denied a stay as to) comparable changes for the April election, and the Supreme Court
modified the latter only to the extent of requiring that an
absentee ballot be delivered or postmarked on or before
election day.3 Neither we n or our superiors wou ld have d on e
so had there been a substantial risk of confusing voters. The
other three changes are directed to election officials and what
they must do. By their nature, these changes w ill n ot impact
voter decision s.
A secon d con sideration is whether the changes to election
rules w ill burden election officials and increase the odds that
they make mistakes. Judge Conley gave careful atten tion to
whether state election officials wou ld have the time and ability to implement the changes h e ordered. The Wisconsin Election Commission signaled a preparedness and ability to com ply w ith these modifications (more on these points below),
and the State Executive is not h ere to conten d otherwise.
We mu st consider, third, the likelihood that voter disen franchisement w ill en sue from the changes Judge Con ley ordered. The answer h ere is straightforward: it w ill not. On th e
contrary, his directives are aimed at preventing disenfranchisement. And as detailed below, the resu lts of the April
In its April decision, this court denied a stay as to an extension of the
deadline to request an absentee ballot and the deadline for receip t of a
completed absentee ballot. Bostelmann, 2020 WL3619499, at *I. The district
court had also ordered an extension of the deadline to register online for
the April election, see Dem. Nat'/ Com. v. Bostelmann, 447 F. Supp. 3d 757,
765-67 (W.D. Wis. Mar. 20, 2020), but a stay was not sought as to that extension.

3

12a
Case: 20-2835

12

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

election in Wisconsin demon strate that only in the absen ce of
ju dicial intervention will voters be disenfranchised.
Fou rth, there has been no lack of diligence on the part of
the plaintiffs in seeking relief. They sough t relief in advance
of the April election, as the pandemic was h eating up, succeeded in part as to that election, and promptly ren ewed their
pu rsu it of relief in the immediate aftermath of that election .
After they defeated the Legislature's attempt to dismiss th eir
claims, see Dem. Nat'l Com. v. Bostelmann, 2020 WL 3077047
(W.D. Wis. June 10, 2020), they proceeded with discovery,
presented their case at an evidentiary h earing in August, and
obtained a favorable ruling in September. There h as been no
dallying on the plaintiffs' part. For its part, the district judge
respon ded w ith both alacrity and attention to detail. But according to this cou rt, wh ich h as retroactively announced a
May deadline for any chan ges to election rules, it was all for
naught -their work was over before it began .
Fifth and finally, although the election is drawing close,
the district judge issu ed h is injunction six weeks prior to the
election, leaving ample time for Wiscon sin election officials to
alter election practices as ordered and communicate the
changes to the public, and for h is judgment to be reviewed by
this cou rt and, if necessary, by the Su preme Cou rt.4 This is a
As the Gear plaintiffs point out, other circuit courts have upheld injunctions modifying state election procedures in the immediate run-up to elections when the courts deemed the modifications necessary to prevent
voter disenfranchisem ent. E.g., League of Women Voters of the U.S. v. Newby,
838 F.3d 1, 12- 15 (D.C. Cir. 2016) (2-1 decision) (six weeks before election);
Obama for Am. v. Husted, 697 F.3d 423, 436- 37 (6th Cir. 2012) (one month
before election); U.S. Student Ass'n Fdn. v. Land, 546 F.3d 373, 387-89 (6th
Cir. 2008) (2-1 decision) (six days before election).

4

13a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

13

far cry from April, when the court's injunction was issued just
eighteen days prior to the election and was modified to grant
additional relief just five days prior to the election. The Covid19 pandemic is n o longer new bu t neither is it a static phenomenon; infection rates have ebbed and surged in multiple
waves around the country and it is only now that Wiscon sin
is facing crisis-level conditions. I suppose that the district
court cou ld have issued a preliminary injunction in May
based on the experience w ith the April election, as m y colleagues suggest, but the defendants no doubt would have argued that it was premature to deem modifications to the election code warranted so far in advance of the election,5 and
there is a fair chance that this court might have agreed w ith
them. Wisconsin infection rates in early May were less than
one quarter of w hat they are now . Nothing in Purcell or its
progeny forecloses modifications of the kind the district court
ordered in the worsening circumstances that confront Wisconsin as the election draws nigh. Otherwise, courts would
never be able to order relief addressing late-developing circumstances that threaten interference w ith the right to vote.6

In fact, the defendants did argue precisely that in m oving to dismiss the
DNC's complaint shortly after the April election took place. See Dem. Nat'l
Com. v. Bostelmann, 2020 WL 3077047 (W.D. Wis. June 9, 2020).

5

Professor Stephanopoulos cites the Bipartisan Campaign Reform Act's
special restrictions on campaign ads imposed within 60 days of an election, and the Military and Overseas Voter Empowerment Act's requirement that absen tee ballots be sent to certain voters a t least 45 days prior to
an election, as possible guideposts for determining when the eleventh
hour has arrived for judicial intervention into an election. Freeing Purcell.
Obviou sly, we are past both reference points here. But Stephanopoulos
himself argu es that this sort of deadline (which, of course, the Supreme

6

14a
Case: 20-2835

14

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

The cou rt's secon d rationale for granting a stay-that "the
design of adjustments du ring a pandemic" is a task for elected
officials rather than the judiciary- announces an ad hoc
carve-ou t from the Anderson-Burdick framework for the review of state election rules. See Anderson v. Celebrezze, 460 U.S.
780, 103 S. Ct. 1564 (1983); Burdick v. Takushi, 504 U.S. 428, 112
S. Ct. 2059 (1992). That framework does call for deference to
state officials, depending upon the degree of restriction that
state election ru les impose on the right to vote: severe restriction s demand strict judicial scrutiny, wh ereas modest,
unexceptional restriction s en joy a presu mption of validity. Id.
at 434, 112 S. Ct. at 2063-64. But wh at the majority proposes
is total deference to state officials in the con text of pandemic,
with n o degree of judicial scrutiny at all. Th at I cann ot endorse. Communicable diseases can impose real and substantial obstacles to voting, and voting rules that are unobjectionable in normal condition s may become unreason able d uring
a pandemic, when leaving one's home and joining oth er voters at the polls carries with it a genuine risk of becoming seriously ill.
Notably, the Wiscon sin Election Commission, wh ose
members are appointed by two sets of elected officials-the
Legislature and th e Govern or-was represen ted in th e litigation below. As I noted at the outset, the Commission h as acceded to the district court's injunction and has n ot sough t a
stay. As long as we are discussing deferen ce to state officials,
th e views of the Commission, wh ich is charged with en forcing Wisconsin's election ru les, ou gh t to count for something.
Court has yet to adopt) should not be conclusive in assessing the propriety
of judicial intervention.

15a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

15

Justice Kavanaugh's concurrence in Andino posits that a
state legislature's decision whether or not to alter voting rules
in response to the Covid-19 pandemic ordinarily should not
be second-guessed by the judiciary, which lacks the legislature's presumed expertise in matters of public health and is
not accountable to the people. 2020 WL 5887393, at *1. But
state legislatures do not possess a monopoly on matters of
public health, see, e.g., Elim Romanian Pentecostal Church v.
Pritzker, 962 F.3d 341 (7th Cir. 2020) (reviewing Governor's
executive order restricting size of public assemblies in light of
public health emergency), and when state government is divided as it is in Wisconsin, stalemates occur. When a state
proves unw illing or unable to confront and adapt to external
forces that pose a real impediment to voting, it places into
jeopardy the most cherished right that its citizens enjoy. (The
debacle that occurred w ith respect to in-person voting in Wisconsin on April 7, as I discuss below, makes that point all too
clear.) The right to vote is a right of national citizen ship. Dunn
v. Blumstein, 405 U.S. 330, 336, 92 S. Ct. 995, 999-1000 (1972).
It is essential to the vitality of our democratic republic. E.g.,
Wesberry v. Sanders, 376 U.S. 1, 17, 84 S. Ct. 526, 535 (1964)
("No right is more precious in a free country than that of having a voice in the election of those who make the laws under
which, as good citizens, we must live.").7 And no citizen of
Wisconsin should be forced to risk h is or her life or well-being
in order to exercise this invaluable right. Wholesale deference

Indeed, the irony of Justice Kavanaugh' s rationale is that unchecked deference to the state legislature as to voting procedures during a pandemic
may render legislators unaccountable to voters wishing to exercise their
franchise.

7

16a
Case: 20-2835

16

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

to a state legislature in this context essentially strips the right
to vote of its constitution al protection.
I submit that our foremost d u ty in this case is to protect
th e voting rights of Wisconsin citizen s, wh ich are seriou sly
end angered, rather than discretionary action (or inaction ) by
one branch of state governmen t, in th e face of a pand emic. My
evalu ation of the district court's injunction proceed s on that
understand ing.
A central premise of the Legislature's request for a stay of
the changes that Judge Con ley ordered to Wisconsin's election ru les is that the ability to register and/or vote in person
remains a perfectly acceptable alternative to any Wiscon sin
voter who is un able to register in advance of the election and
to return an absen tee ballot prior to election day. Were these
ordinary times, I w ou ld h ave no d ifficulty agreeing w ith th e
Legislature. Bu t what the Legislature downplays- indeed,
barely acknowledges in its briefs-is th e con crete risk that a
100-year pandemic, which a t present is surging in Wisconsin,
poses to anyone who mu st brave lon g lines, possibly for
hou rs, in order to register and vote in person .
H istorically, the vast m ajority of Wiscon sin voters have
cast their ballots in person, and Wisconsin's election system
has evolved against that backd rop, with provisions for absen tee voting having served as a cou rtesy for the minority of voters wh ose work, travel, or other individu al circumstances
presen ted an obstacle to voting in person on election day.
D. Ct. Op. 15, 39. Absentee ballots have often con stituted less
than 10 percent of ballots cast in Wisconsin, and, until this
year, never more than 20 percen t. D. Ct. Op. 15. Voters have
also relied heavily on the State's liberal provision for sameday voting registration, w ith some 80 percent of all Wiscon sin

17a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

17

voter records reflecting some use of this feature. D. Ct. Op . 39
(citing R. 532 at 58.) The Covid-19 pandemic has turned this
in-person voting paradigm on its h ead, as Judge Conley emphasized . Whereas, in the April 2019 election, voters requested (and were sent) a total of 167,832 absen tee ballots
(D. Ct. Op. 12 n.9), on e year later, that total increased nearly
eight-fold to 1,282,762 (D . Ct. Op. 12), with absentee ballots
comprising 73.8 percen t of ballots counted in the April 2020
election (D. Ct. Op. 15).
The strain that the pandemic and the sudden, unprecedented preference for absentee voting placed on state and local officials had predictable results in the April 2020 election .
Election officials scrambled to keep up with the overw helming demand for absentee ballots. Between April 3 and April 6
(the d ay before the election), local officials were still in the
process of m ailing more than 92,000 absentee ballots, virtually
all of which were sen t too late for them to be filled out and
mailed back by election day. D. Ct. Op. 13. Another 9,388 ballots were timely applied for but n ever sent. D. Ct. Op. 13. Approximately 80,000 absentee ballots were completed and postmarked on or before election day bu t were only received by
election officials in the six days after the statutory deadline for
such ballots. D. Ct. Op. 17. These ballots wou ld not have been
counted but for the district court's order, sustained by this
court and modified by the Supreme Court, extending the
deadline.
Notw ithstanding the fact that nearly three-qu arters of the
votes cast in the April 2020 election were via absentee ballots,
in-person voting in that election presented challenges of its
own. Poll workers were in short supply, as individuals who
wou ld normally have st affed the polls (many of them

18a
Case: 20-2835

18

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

seniors8 ) stayed away in droves, particularly in u rban location s. Milwaukee, with a popu lation of 592,025, normally operates 180 polling sites. The city could manage to open on ly
five on April 7. D . Ct. Op. 16. Green Bay, population 104,879,
norm ally operates 31 polling sites. On April 7, ju st two were
open. D. Ct. Op. 16. Lines of voters (thou sand s of whom had
timely applied for absentee ballots bu t had n ot received them)
stretched for blocks and people waited hours to vote.9 Some
were masked, many were n ot. Some number of voters (we do
not know h ow many) showed u p to vote in person after not
receiving an absen tee ballot prior to election day and, discouraged by the long lines and wait tim es, walked away without
casting a vote. D. Ct. Op. 17 (citing voter declarations). Those
who stayed in line faced a discern ible risk of becoming
See Michael Barth el and Galen Stocking, Older people account for large
shares of poll workers and voters in U.S. general elections, PEW R ESEARCH
C ENTER: FACT TANK, NEWS IN THE NUMBERS (April 6, 2020),
https://www.pew research.org/fact-tank
/2020/04/06/older-people-account-for-large-shares-of-poll-workers-and-voters-in-u-s-genera l-elections/; Laurel White, 'Jt's Madness.' Wisconsin's election amid coronavirus
sparks anger, N PR (April 6, 2020), https://www.n pr.org/2020/04/06
/827122852/it-s-madness-wisconsin-s-election-amid -coronavirus-sparksanger.

8

See, e.g., Astead W. Herndon and Alexand er Bu m s, Voting in Wisconsin
During a Pandemic: Lines, Masks and Plenty of Fear, NEW YORK TIMES (April
7, 2020, updated May 12, 2020) ("The scenes that unfo lded in Wisconsin
showed an electoral system stretched to the breaking point by the same
public health catastrophe that has killed thousands and brou ght the cou ntry's economic and social patterns to a virtual stand still in recent weeks.");
Benjamin Swasey & Alana Wise, Wisconsin vote ends as Trump blames govlines,
NPR
(April
7,
2020),
ernor
for
long
https://www.npr.org/2020/04/07/828835153/long-lines-masks -and-plexiglass-ba rriers-greet-wisconsin-voters-at-polls.
9

19a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

19

infected. Althou gh the eviden ce on this point is mixed, public
health officials determined that 71 individu als contracted
Covid-19 after voting in-person or working at th e polls on
April 7'1°; on e analysis extrapolates from the available data to
estimate that a ten percent increase in in-person voters per
polling location is associated with an eighteen percent increase in Covid-19 cases two to three weeks later.11
The district cou rt, presented with largely undispu ted evidence that (1) the demand for absen tee ballots in the forthcoming general election in November will be even greater
than it was in April (as many as 2 million absentee ballot requ ests are an ticipated), (2) recent cutbacks at the U.S. Postal
Service and the resulting delays in mail delivery will present
an even greater obstacle to registering and voting by mail
than it did in the spring, and (3) persistent concerns abou t a
shortage of poll workers on election day again raise the specter of long lines to vote in person, ordered a set of five limited
modifications to Wiscon sin election rules aimed at compensating for these cond ition s and en suring, consistent with public health advice and voters' obvious preferen ce for absentee
voting, that voters wh o wish to vote by mail may do so. The
two most sign ificant of these con dition s are comparable to
See David Wahlberg, 71 people who went to the polls on April 7 got Covid19; tie to election uncertain, WIS. STATE J. (May 16, 2020), https://madison.com/wsj/news/local/health-med-fit/71
-people-who-went-to-thepolls-on-a pril-7-got-covid-19-tie-to
/ article_ef5ab183-8e29-579a-a52blde069c320c7 .html.

10

Chad Cotti, Ph.D., et al., The Relationship between In-Person Voting and
COVID-19: Ev idence from the Wisconsin Primary, Nat'! Bureau of Economic
Research, Working Paper No. 27187 (May 2020, revised October 2020),
available at https:// www.nber.org/papers/w27187.
11

20a
Case: 20-2835

20

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

those su stained by this court, as modified in one respect by
the Supreme Court, for the April election. None are opposed
here by the Wisconsin Executive, which is charged with administering the election. See Repub. Nat 'l Com. v. Common
Cause Rhode Island, - S. Ct. - , 2020 WL 4680151, at *1 (U.S.
Au g. 13, 2020) (noting, inter alia, in denying stay of judicially
ordered modifications to state election law, that "here the
state election officials su ppor t the challenged decree ... "). To
the extent these modifications intrude modestly upon the
State's ability to establish its own rules for conducting election s, they are more than justified by the present pandemic
and the unacceptable risks that in-person voting presents to
the citizens of Wisconsin.
The Legislature challenges Judge Conley's exercise of discretion in ordering these modifications as if th e Covid-19 pandemic presented a quotidian problem in an otherwise routine
election, where the options for voting in-person might represent an entirely adequate alternative to voting by mail. The
State's experien ce with the April election and the current state
of the pandemic in Wisconsin demonstrate the fallacy in this
premise.
As I write this dissent, new infections are surging in Wisconsin and threatening to overwhelm the State's h ospitals.
Judge Conley noted that in the weeks prior to his decision,
new infection s had doubled from 1,000 to 2,000 per day.
D. Ct. Op. 20. As of Tuesday, October 6, a seven-day average
of 2,346 new cases of Covid-19 was reported.12 The Governor

Wis. Dep't of Health Servs., COVID-19: Wisconsin Cases (as of October
6, 2020), https://www.dhs.wisconsin.gov/covid-19/cases.htm#confirmed.

12

21a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

21

has declared a public h ealth emergen cy.13 A draft report from
the White Hou se Coronavirus Task Force dated Mon day of
last week described a "rapid worsening of the epidemic" in
Wisconsin and placed the State in the "red zon e" for Covid19 cases, with th e th ird-high est number of such cases per
100,000 popu lation in the country and seventh-highest test
positivity rate. Nearly half of all Wisconsin counties now have
high levels of community transmission . Coronaviru s Task
Force, State Report -Wiscon sin, at 1 (Sept. 27, 2020).14 Hospitalization rates are at record h ighs in the State, with facilities
in northeast Wiscon sin approaching capacity du e to the su rge
in Covid-1 9 cases15; the State is n ow proceeding with plans to
open a field hospital to address the shortage of hospital beds.16
Against this worsening backdrop, the district court credited
Executive Order No. 90, Office of Wisconsin Governor (Sept. 22, 2020),
at
https://evers.wi.gov/Pages/Newsroom/Executive-Oravailable
ders.aspx.

13

Available at WASHINGTON POST website, https:// www.washingtonpost.com/context/white-house-coronavirus-task-force-report-wamsof-high-wisconsin-covid-19-spread-in-wisconsin/e5f16345-fcb4-4524975e-8011379ef0da/.

14

Mary Spicuzza, et al., Some hospitals forced to wait-list or transfer patients
as Wisconsin's coronavirus surge continues, MILWAUKEE JOURNAL SENTINEL
(Sept. 30, 2020), https:// www.jsonline.com/story/news/2020/09/30/wisconsin-hospi tals-wa it-list-pa tients-covid-19-su rge-coronavirus-greenbay-fox-valley-wausau/3578202001/ .
15

Mary Spicuzza and Molly Beck, Wisconsin to open field hospital at State
Fair Park on October 14 as surge in coronavirus patients continues in Fox Valley,
Green Bay, MILWAUKEE JOURNAL SENTINEL (October 7, 2020),
https://www .jsonline.com/ story/news/local/wisconsin/2020/10/07/wisconsin-prepa ring-open-altema te-care-facility-state-fair-park-state-continues-face-surge-covid-1/5909769002/ .

16

22a
22a

Case: 20-2835

22

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

the opinion of a nationally recogn ized expert in public health
surveillance, wh o opined that " [t]h ere is a significant risk to
human h ealth associated w ith in-person voting d uring the
COVID-19 pandemic[;] [t]here w ill almost certainly be a significant risk of contracting and transmitting COVID-19 in
Wisconsin on and around November 3, 2020[;] [t]he risk of
contracting or transmitting COVID-19 w ill deter a substantial
portion of Wisconsinites from voting in person on November
3, 2020[;] and [i]ncreasing the ease and availability of absentee-ballot voting option s is critical to protecting public health
d uring the November 3, 2020 election ." D. Ct. Op . 23; Expert
Report of Patrick Remington, M.D. at 1 (R. 44 in Case No. 3:20cv-00459-wmc).
Presented w ith the evidence as to wh at occurred in April
and what is happening now with respect to the pandemic,
Judge Conley reasonably concluded that (1) a substantial
number of eligible Wisconsin voters w ill not meet the October
14 deadline to register online or by m ail, leaving them w ith
only in-person option s to register, (2) of the 1.8 to 2 million
registered voters wh o are expected to timely requ est absentee
ballots (D. Ct. Op . 20, 47), as many as 100,000 w ill n ot be able
to return those ballots by election day throu gh no fau lt of their
own (D. Ct. Op. 51), and (3) when faced with the risks associated with registering or voting in-person, and potentially having to wait in line for hours in order to d o so, som e number of
voters w ill deem the risk too great. These con clu sions explain
why h e ordered modest adjustmen ts to Wisconsin's election
rules in order to minimize that possibility.
Of all of us, Judge Con ley is the on e judge wh o h eard the
evidence first-hand and is closest to the ground in Wiscon sin.
We owe deference to h is judgment. H e con sidered the

23a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

23

Anderson-Burdick factors for constitutional challenges to state
election rules. Consistent w ith Luft v. Evers, 963 F.3d 665, 671
(7th Cir. 2020), h e considered the Wiscon sin election rules in
th eir totality in assessing the burden s tha t those rules, under
the present circumstances, impose on the right to vote. H e
considered Purcell's admon ition that jud icial orders modifying election rules can resu lt in voter confusion and an incentive n ot to vote, especially as an election draws closer. 549 U.S.
at 4-5, 127 S. Ct. at 7. H e con sidered this court's prior ruling
in April granting a stay as to all but two of the modifications
ordered for the April election . Bostelmann, 2020 WL 3619499.
And he considered the Su preme Court's ruling, issued on e
day prior to the April election, w hich both chastised the district court for altering Wisconsin's election rules w ithin d ays
of the election bu t also modified the extension of the ballotreceipt deadline to require that mailed absentee ballots be delivered or postmarked on or before election day an d accepted
the deadline change as modified. Republican Nat'l Com., 140
S. Ct. at 1207, 1208.
In view of the fact that this court allowed extensions of the
ballot-request deadline and ballot-receipt deadline to be
implemented in the April election, it is not clear to me wh y
the majority has decided to stay comparable modifications
(effectively nullifying them) for the November election . Yes,
the Covid-19 virus is no lon ger a new men ace and Wiscon sin
election officials have n ow had the experience of conducting
two elections du ring the pandem ic. But the Wisconsin
election code remains on e designed primarily for in-person
voting, whereas the surge of Covid -19 cases in Wiscon sin h as
only increased the risks associated w ith in-person voting
since April. The logistical demands posed by absentee voting
w ill if anything be greater for the November general election,

24a
Case: 20-2835

24

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

with possibly a million additional absentee ballots to be sen t
and returned by mail; and with the recently-discovered
cutbacks in Postal Service capacity,17 there is even greater
reason to be concerned abou t the ability of voters to both
register an d vote by mail. Registering and voting in person
remain as altern atives, bu t no legislator, no election official,
and certainly no judge can assu re Wisconsin voters that there
is no risk associated with registering and/or voting in person
as infection rates spike in their communities, especially in
high-population urban areas. Election officials may hope that
more polling places will be open in November than April, but
th ey cannot guarantee that enou gh poll workers will show u p
on election day to avoid the sorts of long voter lines and waits
that made headlines then . Nor, by the way, can anyone assu re
voters that they will not be waiting in line next to one or more
unmasked voters, or one wh o is contagiou s with the
coron aviru s. Indeed, a lawsuit challen ging the Govern or's
mask mandate is presently pending in the Wiscon sin courts.18
See, e.g., Jacob Bogage, et al., DeJoy pushes back on criticism of changes to
Postal Service, says he won't restore sorting machines, WASHINGTON POST
(Aug.
24,
2020),
https://www.washingtonpost.com/politics/2020/08/24/dejoy-testimony-usps-house /; Elise Viebeck and Jacob
Bogage, Federal judge temporarily blocks USPS operational changes amid concerns about mail slowdowns, election, WASHINGTON POST (Sept. 17, 2020),
https://www.washing tonpost.com/politics/feder al-jud ge-iss-ues-tem pora ry-injunction-against-us ps-o per ational-changes-amid-concerns-aboutmail-slowdowns/2020/09/
17/34fb85a0-f91e-1 lea-a275la2c2d36elfl_story.html.

17

See Scott Bauer, Conservative law firm seeks to end Wisconsin mask order, AP
NEWS (Sept. 28, 2020), https://apnews.com/article/virus-outbreak-healthMolly
wisconsin-public-health-270d663b9411b33a17fc45fdf8ad2720;
Beck, GOP leaders go to court in support of effort to strike down Tony Evers'
mask mandate, WISCONSIN JOURNAL SENTINEL (Oct. 2, 2020),

18

25a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

25

Having in mind the sh ortfalls with the April election and
the current public health crisis posed by the pandemic, it is
not unreasonable for Wisconsin voters to view the option of
in-person registration an d voting as a form of Russian roulette. For eligible voters wh o are unable to register by mail by
the statutory deadline (and for the April election, there were
more than 57,000 people who registered after that deadline,
thanks to the district court's extension of tha t deadline,
D. Ct. Op. 17) and for voters wh o timely request an absen tee
ballot bu t wh o either do not receive it by election day or receive it too late to return it by election day (more than 120,000
absentee ballots were not return ed by election, see D. Ct. Op.
15), the risks associated with in-person registration and voting amount to a concrete and unacceptable, and in my view,
severe, restriction on th e righ t to vote. See Luft, 963 F.3d at 672
(citing Burdick, 504 U.S. at 434, 112 S. Ct. at 2063; Anderson, 460
U.S. at 788, 103 S. Ct. at 1569-70; Acevedo v. Cook Cnty. Officers
Electoral Bd., 925 F.3d 944 (7th Cir. 2019)). This is especially
true of individuals who are 65 years of age or older (more than
900,000 people in Wiscon sin19) , obese (some 40 percen t of Wisconsin adults20), or suffer from chronic h ealth conditions that
render them especially vu lnerable to complication s from a
https://www .jsonline.com/story/news/politics/2020/10/02/
gop-goescourt-su pport-effort-strike-down-mask-mandate/ 3592966001/.
See Wis. Dep' t of H ealth Servs., Demographics ofAging in Wisconsin, Am.
Community Survey Sta tewide & Cnty. Aging Profiles, 2014-18, State of
Wis. Profile of Persons Ages 65 & Older (Jan. 20, 2020),
https://www.dhs.wisconsin.gov/aging/demogra phics.htm.

19

See Tala Salem, Wisconsin obesity rate higher than previous estimates, U.S.
NEWS & WORLD REPORT (June 11, 2018), https://www.usnews.com/news/heaIth-care-news/articles/ 2018-06-11/wisconsin-obesityra te-higher-than-previous-estima tes.

20

26a
Case: 20-2835

26

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

Covid-19 infection (some 45 percent of all adu lts nationwide21).
Of course it is true that voters ha ve the ability to plan
ahead, register early if n eed be, and request absen tee ballots
early in order to ensure that they h ave adequate time to complete and return their ballots prior to election day .22 Bu t voters
may also reason ably rely on the State's own deadlines for advance registration and requesting an absentee ballot as a
guide to the amount of time n ecessary for their registrations
to be processed and their ballots to be issued, completed, and
returned . Voters do not run the State's election apparatus or
the U.S. Postal Service; they have n o special insigh t into how
quickly their timely requests to register and/or vote by mail
will be processed by election officials and h ow quickly the
Postal Service will deliver their ballots. It is not reason able to
insist that voters act more quickly than state deadlines require
them to do in order to en sure that either the State or the Postal
Service does not inadvertently disenfranchise them because
th ey are overw h elmed with the volu me of mail-in registration s and absentee ballots.

See Mary L. Adams, et al., Population-based estimates of chronic conditions
affecting risk for complications from coronavirus disease, United States, 26
EMERGING
INFECTIOUS DISEASES J. No. 8 (Au gust
2020),
https://wwwnc.cd c.gov/eid/article/26/8/20-0679 _article.
21

Completing an absentee ballot is n ot a matter of simply filling it out.
Wisconsin requires absentee voters to have their ballots signed by a witness. See Wis. Sta t. § 6.87(4)(b). Some 600,000 Wisconsin voters live alone
(D. Ct. Op. 21), which means they mu st seek out someone outside of their
hou sehold to sign their ballots. During a time of surging Covid-19 infections, tha t is not n ecessarily a simple task.

22

27a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

27

It is also true that voters who receive their ballots just prior
to the election h ave the option of delivering their ballots to a
dropbox or to the polls on election day. But significant num bers of Wisconsin voters lack a driver's license (includin g
roughly half of African American an d Hispanic residen ts) and
therefore cannot drive themselves to a poll or dropbox.23 Relying on public transportation, a taxi, a ride-sharing service,
or a lift from a n eighbor to make the trip presen ts difficu lties
and risks of its own, which cannot be justified if the voter has
timely com plied with existing deadlines and yet cann ot meet
existing deadlines throu gh n o fau lt of her own .
I recognize that the district court's decision to order m odifications to Wisconsin's election practices represents an intrusion into the dom ain of state governmen t, but in m y view
it is a necessary one. We are seven months-plu s into this pandem ic. The Legislature has h ad ample time to make m odification s of its own to the election code and h as declined to do so.
The Wisconsin Elections Commission, divided 3-3 alon g
party lin es, conclu ded that it lacks the au thority to order su ch
mod ifications. This leaves voters at the mercy of overworked
state and local election officials, a hamstrung Postal Service,
and a m erciless virus. What we must ask, as Judge Conley
did , is wh ether Wisconsin's election rules, which were n ot
drafted for pan dem ic con ditions, effectively restrict a Wisconsin citizen's right to vote under current conditions. The answer, I sub mit, is yes. Based on the State's experien ce w ith th e
April election, we know it is likely that ten s of thousan d s of

See John Pawasarat, The Driver License Status of the Voting Age Population
in Wisconsin, Employment and Training Institute, Univ. of Wis.-Milwaukee (June 2005), available at https://dc.uwm.edu/eti_pubs/68/ .

23

28a
Case: 20-2835

28

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

voters w ill not meet the October 14 deadline to register on line
or by mail, especially if they are relying on the mail to com plete that process. We know that ten s of thousands of voters
likely will n ot be able to return their ballots by mail before
election day, through no fault of their own . We know that registering or voting in person, especially on election day, will
expose some number of voters to a con crete risk of Covid -19
infection . Collectively, these con ditions pose a real and substantial imped iment to the right to vote. Whether that obstacle
is view ed as modest or severe, and wh ether viewed throu gh
the lens of rational basis review or strict scru tiny, it is unacceptable. The State itself pu rports to want people to vote absentee, and yet h as done nothing to alter its election ru les to
make the necessary accommodation s to ensure that voters are
not needlessly d isenfranch ised by the overwh elming shift
from in-person to absen tee voting.
I con clude w ith a just a few words about each of the individ u al modifications that the district court ordered. Individu ally and collectively, these modifications, in my view, represent a reason able, proportional respon se to curren t con ditions
aimed at preserving the right to vote.
Of these, the most important, and in m y view, the most
essen tial of these modification s is the six-day extension of the
deadline for the return of absen tee ballots by mail to November 9, 2020, so lon g as the ballots are postmarked on or before
election day. Of the five modification s ordered by the district
court, none is more directly aimed at protecting the right to
vote, in that it seeks to ensu re that ballots that have been
timely cast by voters w ill be counted . The circumstances that
warranted a similar extension in April are even more serious
now: the Covid -19 pandemic makes it more imperative that

29a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

29

as many voters as possible vote by absentee ballot; the d emand for absentee ballots is virtually certain to be even
greater (record-sh attering) than it was in April, placing unprecedented demands on election officials an d the U.S. Postal
Service alike; and cutbacks implemented by the U.S. Postal
Service this summer (not all of which have been suspen ded or
reversed ) threaten recurrent if not worse delays in the delivery and return of absentee ballots. The fact that some 80,000
ballots were received by mail after election day in April is all
the proof n ecessary that an extension of the receipt deadline
is vital as a means of protecting the voting righ ts of ten s of
th ou sands of Wisconsin voters-voters who, it cannot be said
too often, will timely request and complete absentee ballots
but are unable to return them by the election day deadline by
no m istake or omission of their own. Against this, all that the
Legislature offers is a wish to h ave the results of the election
conclusively determined on election nigh t. But weigh ed
against the con stitution al right to vote, this is th in gruel.
The one-week exten sion of the deadline to register on line
or by mail is reasonable in terms of both the worsening pandemic and the slowdown in mail service. As Judge Conley
pointed out, Wisconsin voters are in the h abit of using the
State's same-day registration option to register or update their
registration on election day. Only as Covid-19 infections
surge in Wisconsin may voters now realize that in-person registration on election day poses unique risks, particularly if
lines at the polls turn ou t to be as long as they were in April.
At the same time, voters seeking to register by mail may run
into the same problems tha t absen tee voters en countered in
April w ith d elays in the U.S. Mail. A brief exten sion of the
advance registration deadline is an appropriate response, and
the Wiscon sin Election Commission conced ed that the

30a
30a

Case: 20-2835

30

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

extension would still leave adequate time for election officials
to upd ate pollbooks with registration information in time for
election day.
The directive to add language to the My Vote and WisVote
websites (alon g w ith any relevant printed materials) regarding the "indefinitely confined" exception to the photo i.d. requirement is an extremely limited order aimed at eliminating
voter confusion. Wisconsin law requires voters to present appropriate photographic identification in order to obtain a ballot, wh ether in-person or by mail. There is an exception to this
requirement for a voter wh o is "indefinitely confined" due to
age, infirmity, or disability; the signature of the voter's w itness w ill be deemed sufficien t in lieu of proof of i.d . The Commission's March 2020 guidance on this exception makes clear
that a voter need not be permanently or totally disabled and
wholly unable to leave on e's residen ce in order to qualify for
this exception, but this guidance is not easily available to voters and the d istrict court found that there was a substantial
risk of voter con fusion as to the scope of the exception without further guid ance. This was a reasonable order.
The order to permit replacement absentee ballots to be
transmitted electronically to domestic civilian voters who
have n ot received their ballots by mail in the penultimate
week prior to the election (October 22- 29) addresses a concrete problem that emerged in the April election: n ot all absentee ballots w ill reach voters in time for the election even if
they have been timely requested. Recall that ten s of thousands
of ballots were still being mailed ou t within a few days of the
election, making it impossible for voters to return them by
mail (if they received them at all) by election day. Wiscon sin
law prohibits election officials from sending ballots by

31a
Case: 20-2835

Document: 76

Nos. 20-2835 & 20-2844

Filed: 10/08/2020

Pages:32

31

electronic means to anyone but military or overseas voters.
That restriction was modified by ju dicial order in 2016, see
One Wisconsin Inst., Inc. v. Thomsen, 198 F. Supp. 3d 896, 946-48 (W.D. Wis. 2016), and until our June 2020 decision in Luft
reversing that modification, election officials were making absentee ballots available online or by fax as necessary to domestic civilian voters. Restoring that practice for a limited
window of time in advance of the November election makes
eminent sense as a means of protecting the right to vote by
voters who h ave timely requ ested an absentee ballot but have
not received it in the mail as the election approaches.
Finally, in view of the severe shortages of poll workers
that hobbled the April election with numerous poll closings
and massive voting delays, the order that local officials be allowed to employ poll workers wh o are not electors in the
county where they will serve is both necessary and reason able. Ad equ ate staffing of the polls is essential to minimizing
voter wait times and, in turn, public health risks. Allowing
poll workers (be they civilians or National Gu ard reservists)
to work outside of their own counties is a modest and entirely
reasonable means of achieving that en d, one that poses n o risk
to the integrity of the election. The Legislature h as articulated
no reason wh y this accommodation is either unnecessary or
inappropriate.
Given the great care that the district court took in issuing
its preliminary injunction and the ample factual record supporting its decision, I am dismayed to be dissenting. It is a
virtual certainty that curren t cond itions will result in many
voters, possibly tens of thousand s, being disen franchised absent ch anges to an election code designed for in-person voting
on election day. We cannot turn a blind eye to the presen t

32a

Case: 20-2835

32

Document: 76

Filed: 10/08/2020

Pages:32

Nos. 20-2835 & 20-2844

circum stances and treat this as an ordinary election . Nor can
we blindly defer to a state legislature that sits on its hands
while a pandemic rages. The district court ordered five modest changes to Wiscon sin's election rules aimed at minimizing
the number of voters wh o may be denied the right to vote.
Today, in the midst of a pandemic and significantly slowed
mail delivery, this court leaves voters to their own devices.
Good luck and G-d bless, Wisconsin. You are going to
need it.

33a
Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 1 of 69

IN THE UNITED STATES DISTRICT COURT
FOR THE W ESTERN DISTRICT OF W ISCONSIN
DEM OCRATIC NATIONAL COMMITTEE,
et al.,
Plain t iffs,
V.

MARGE BOSTELMANN, et al.,

OPIN ION AND ORDER
20-cv-249-wmc

Defendants,
and
W ISCONSIN LEG ISLATURE,
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF W ISCONSIN,
Interven ing-Defendants.
SYLVIA GEAR, et al.,
Plaint iffs,
V.

MARGE BOSTELMANN, et al.,
Defendants,
and
W ISCONSIN LEG ISLATU RE,
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF W ISCONSIN,
Interven ing-Defendants.

20-cv-278-wmc

34a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 2 of 69

CHRYSTAL EDWARD S, et al. ,
Pla intiffs,
V.

20-cv-340-wmc

ROBIN VO S, et al.,
D efendan ts,
and
REPUBLICAN NAT IONAL CO MMITTEE,
and REPU BLICAN PARTY OF W ISCONSIN,
Interven ing-D efendants.
JILL SWENSON, et al.,
Pla intiffs,
V.

MARGE BOSTELMANN, et al. ,
and

20-cv-459-wmc

D efendants,

W ISCONSIN LEGISLATURE,
REPUBLICAN NAT IONAL CO MMITTEE,
and REPU BLICAN PARTY OF W ISCONSIN,
Intervening-Defendants.
In these four, consolidated lawsuits, various organizations and ind ividuals have
moved for preliminary injunctive relief concerning the conduct of the W isconsin general
election on Novembe r 3, 2020 . W hile the Commissioners and Admin istrator of the
Wisconsin Election Commission ("WEC") oppose the motions only to the extent the
requested relief would exceed the W EC's statu tory au thority, the W isconsin Legislature,

35a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 3 of 69

the Republican National Committee and the Republican Party of W isconsin have
intervened to o ffer a more robust opposition to those motions. 1 In addition to these
pending motions for prelim inary injunction, d efend ants and intervening defendants have
a lso moved to dismiss three of the four cases.
For the reasons that follow, the court w ill largely reject defendants' grounds to
d ismiss. As for the requests for preliminary relief, election workers' and voters' experiences
during Wisconsin's primary election in April, which took place at the outset of the COVID 1 9 crisis, have convinced the court that some, lin1ited relief from statu tory deadlin es for
mail-in registration and absentee voting is again necessa1y to avoid an untenab le
impingem ent on Wisconsin citizens' right to vote, in cluding the near certainty of
d isenfranchising tens of thousands of voters relying on the state's absentee ballot process.
Ind eed , any objective v iew of the record before this court lead s to the inevitable conclusion
that: ( l ) an unpreced ented number of absentee ballots, which turned the predominance of
in-person voting on its head in April, will again overwhelm the WEC a nd local officials
d esp ite their best efforts to prepare; (2) but for an extension of the deadlines for registering
to vote electronically a nd for receipt of absentee ballots, tens of thousands of Wisconsin
voters wou ld have been d isenfranchised in April; and (3) absen t similar relief, will be again
in November. Consistent with the fully b riefed mot ions, evidence presented, and the
hearing held on August 5, 2020, therefore, the cou rt will gran t in part and deny in part the

In the Edwards case, the W isconsin State Assembly, Senate and members of the W isconsin
Legislature were also named as direct defendants along with the WEC Commission ers.
1

36a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 4 of 69

parties' motions for reasons more fully explained below, including entering a preliminary
injunction providing the following relief:
•

extending the deadline under W isconsin Statute § 6 .28( l ), for online and mailin registration from October 14, to October 21, 2020;

•

directing the WEC to include o n the MyVote and WisVote websites (and on
any additional materials that may be printed explaining the "indefinitely
confined" option) the language provided in their March 2020 guidance, which
explains that the indefinitely confined exception "does not require permanent
or total inability to travel outside of the residence";

•

extending the receipt deadline for absentee ballots under Wisconsin Statute §
6.87(6) until November 9, 2020, but requiring that the ballots be mailed and
postmarked on or before election day, November 3, 2020;

•

enjoining Wisconsin Statute § 6.87(3)(a), which limits delivery of absentee
ballots to mail o nly for domestic civilian voters, allowing o nline access to
replacement absentee ballots or emailing replacement ballots for the period from
October 22 to October 29, 2020, as to those voters who timely requested an
absentee ballot, the request was approved, a nd the ballot was mailed, but the
voter did not receive the ballot; and

•

enjoining Wisconsin Statute § 7 .3 0 (2), which requ ires that each election official
be an elector of the county in which the municipality is located, allowing elect ion
officials to be residents of other counties within Wisconsin for the upcoming
November 20 20 election.

In recognition of the likelihood of appellate review, however, this order is ST AYED for one
week, and N O voter can depend on any extension of deadlines for electronic and mail-in
registration and for receipt of absentee ballots unless fi nally upheld on appeal. In the
meantime, lest they effectively lose their right to do so by the vagaries of COVID- 19, mail
processing or other, unforeseen developments leading up to the November election, the
court joins the WEC in urging especially new Wisconsin voters to register by mail on or
before October 14, 2020, a nd all voters to do so by absentee ballot as soon as possible. 2
2

In a vain effort (in both senses of that word) at forestalling the inevitable judge-appointment and

37a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 5 of 69

FACTS

A. Elec tion Laws in W isconsin
1. Registering to vo te
A citizen wishing to vote in W isconsin must fi rst register in the ward or district in
which they reside. To do so, the voter must complete a registratio n form and provide "an
identifying document that establishes proof of reside nce. "3 W is. Sta t. § 6.34(2). T he
deadline fo r registering by ma il or online is the th ird Wed nesday preced ing the election ,
W is. Sta t. § 6 .28, which fo r the upcom ing N ovember 2020 elect ion is October 14, 2020 .
A voter may also register in person at their local municipal clerk's office up to the Friday
before the election , W is. S ta t. § 6.29 ( l )-(2), which for the N ovember election is October
3 0 . Finally, a voter may register in person on election day itself at their designated polling
place. W is. Stat. § 6.55 (2) .

2. Voting by mail
Absentee voting in W isconsin is available to any registered voter who "for a ny
reason is unable or unwilling to appea r" a t the polls. W is. Sta t. § 6.85. To obtain an

bias dialogue so prevalen t in what remains of the independen t press, among conunen tators an d on
the internet, let m e stress, as I did with th e parties during th e August hearing, the limited relief
award ed today is w itho ut regard to (or even knowledge of) w ho may be helped , except the average
W isconsin voter, be they party-affiliated or independ en t. Having grown up in N orthe rn W isconsin
with friends across the political spectrum (and in some cases back again), my only interest, as it
sh ould be for all citizens, is ensuring a fair election by giv ing the overtaxed , sm all WEC staff and
local electio n officials what flexibility the law allows to vindicate the righ t to vote during a
pandem ic.
Military and overseas voters are exempt from this proof of residence requ irem en t. W is. Stat.
§ 6.34 (2) . Also, proof of residence is n ot requ ired if th e voter registers online and p rovides the
n u mber of a current and valid W isconsin operator's license or state ID card , together with his o r
her n ame and d ate of birth, provided th is information is verified. W is. Stat.§ 6.3 4 (2 m) .

3

38a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 6 of 69

absentee ballot, a registered voter must submit an absentee ballot request form, along with
a copy of an acceptable photo ID . Wis. Stat. § 6.86. 4 Voters who are "indefinitely confined
because of age, physical illness or infirmity" are exempt from this photo ID requirement,
but such a voter must still provide a signed statement by the individual who witnesses and
certifies the voter's ballot "in lieu of providing proof of identification."

Wis. Stat.

§ 6.87(4)(b)2.

On March 29, 2020, the WEC issued guidance on the proper use of indefinitely
confined status, explaining that: "Designation of indefinitely confined status is for each
individual voter to make based upon their current circumstances. It does not require
permanent or total inability to travel outside of the residence."

Wisconsin Election

Commission, Guidance for Indefinite!J; Confined Electors COVID-19 (Mar. 29, 2020),
https://elections.wi.gov/node/6788. Two days later, the Wisconsin Supreme Court issued
a decision that preliminarily endorsed the WEC guidance, finding that it "provides the
clarification on the purpose and proper use of the indefinitely confined status that is
required at this time." Jefferson v. D ane Cty, No. 2020AP557-OA (Wis. Mar. 31, 2020).5
Whether submitted online, by fax or by mail, an absentee ballot application must

For certain voters without an acceptable photo ID, there is also an "ID Petition Process" that has
been the subject of substantial litigation unrelated to the current pandemic. See Luft v. Evers, 963
F.3d 665, 678 (7th Cir. 2020).
4

However, litigation on that issue is ongoing, with oral argument before the Wisconsin Supreme
Court scheduled for September 29, 2020. See Wis. Supreme Court Pending Cases (last accessed
2020),
Sept.
3,
https//vvvvvv.wicourts.gov/sdsccase/DisplayDocument.pdf?content=pdf&seqNo=285226. Because
all of the issues certified for review by the Wisconsin Supreme Court in Jefferson relate exclusively
to Wisconsin law, none overlap or conflict with the federal constitutional and statutory claims at
issue in the instant case.
5

39a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 7 of 69

be received no later than 5 p.m. on the fifth day immediately preceding the election , Wis.
Stat.§ 6.86( l) (ac), (b) , which means for the November election on or before 5 p .m. o n
October 29, 2020. Clerks must begin to send out absentee ballots no later than the 47th
day before a general election, at which point the absentee ballot itself must be mailed to a
qualified voter within one business day of the receipt of an absentee ballot request. Wis.
Stat.§ 7.15( l )(cm ).

If a clerk is "reliably informed" that the absentee requester is a milita,y or overseas
voter, the clerk may also fax or transmit an electronic copy of the ballot in lieu of ma iling

it. Wis . Stat. § 6.87(3)(d). Indeed, up until very recently, due to a 2016 injunction by
this court, clerks had the discretion to email ballots to all voters. See One Wisconsin Inst.,
Inc. v. T homsen, l 98 F. Supp. 3d 896, 946-48 (W.D. Wis . 2016) (enjoining "the provision

prohibiting municipal clerks from sending absentee ballots by fax or email [because it]
violates the First and Fourteenth Amendments") . On June 29, 2020, however, the Seventh
Circu it vacated this injunction, meaning that non-military/overseas voters may now receive
an absentee ballot only by mail. See L uft v. Evers, 963 F.3d 665, 676-77 (7th Cir. 2020).
Once received, to cast an absentee ballot by mail, the voter must ( l ) complete the
ballot in the presence of a witness, (2) e nclose the ballot in the envelope provided, (3) sign
the envelope and obtain a signature from the witness and (4) return the ballot for actual
receipt no later than 8 p.m. on election day . Wis. Stat. § 6.87(2), (4)(b), (6). In light of
the COVID-19 pandemic, the WEC further issued guidance on March 29, suggesting
several options for voters to meet the witness signature requirement safely . See WEC,
"Absentee

Witness

Signature

Requirement

Guidance"

(Mar.

29,

2020),

40a
40a
Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 8 of 69

https://elections.wi.gov/node/6790. T his guide ou tlines a multi-step process to acquire a
signature while observing social distancing and other best health practices.

Id.

For

example, the guide suggests that a voter could recruit a friend or neighbor to watch the
voter mark their ballo t through a window or over video chat, with the voter then placing
the ballot ou tside for the witness to sign as well. Id. To return an absentee ballot, a voter
may then mail it, hand deliver it to the clerk's office or other designated site, or bring it to
their polling place on election day. Some, though not all, localities also offer absentee
ballot "drop boxes." See WEC, "Absentee Ballot Return Options - COVID- 19" (Mar. 3 1,
2020), https://elections.wi.gov/ node/ 6798. In that instance, another person m ay deliver
the ballot on behalf of the voter. Id. Finally, "[i]f a municipal clerk receives an absentee
ballot with an improperly completed certificate or with no certificate, the clerk may return
the ballot to the elector ... whenever time permits the elector to correct the defect and
return the ballot." Wis. Stat.§ 6.87(9) .6

3 . Voting in person
A registered voter may also vote absentee in-person, by simultaneously requesting
and casting an absentee ballot at the clerk's office or other designated location beginning
two weeks before election day through the Sunday preceding that election , in this election
meaning Sunday, November l. Wis. Stat. §§ 6.85( l )(a)2, 6.855, 6.86( l )(b). Once an
absentee ballot is received by a clerk, the ballot is sealed in a carrier envelope until election

W isconsin law also permits a voter to receive up to three replacement ballots if they spoil or
erroneously prepare their ballot, provided they return the defective ballot. Wis. Stat. §§ 6.80(2)(c),
6.86(5).
6

41a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 9 of 69

day, at which point the ballo ts are canvassed like any other absentee ballot. Wis. Stat. §§
6.88, 7.5 1-52.
O f course, on election day, a voter may cast a regular ballot in person a t their
designated, local polling station. See Wis. Stat. §§ 6. 77, 6.79. These polls are staffed by
various election officials and poll workers, all of whom are required by Wisconsin law to
be "qualified elector[s] of a county in which the municipality where the official serves is
located."

Wis. Stat. § 7.3 0(2)(a).

As noted above, W isconsin also offers same-day

registration, so an unregistered vote r or a voter who needs to change their registration may
arrive, register and cast a ballot at the polls in person, all on election day. Wis. Stat.
§ 6.55(2) .

H istorically, Wisconsin voters have relied heavily on this election day registration
process. For example, between 2008 and 20 l 6, l O to 15% of all registrations took place
on elect ion day. As Administrator Wolfe testified, Wisconsin has a "cultural tradition" of
same-day registration, with approximately 80 % of voter records having been impacted in
some way by same-day registration. (8/5/20 H r'g Tr. (dkt. #532) 57-58.) 7

B. The COVID-19 Pande mic's Impacts on Wisconsin 's April an d August
Elections

1. Growing problem and related litigation
Since early 20 20, Wisconsin and most of the rest of the world has been impacted

7

Unless otherwise noted, the docket entries are to the 20-cv-249 docket.

42a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 10 of 69

to varying degrees by the novel coronavirus. 8 On Februa1y 6, the first case of COVID -19
was diagnosed in Wisconsin, and as of September 17, 94,746 confirmed cases have been
recorded in the state. Much is still unknown about the virus and the COVID-19 illness
that it causes, but experts appear to agree that COVID-19 is mainly spread via person-toperson, respiratory droplets, and it is more likely to spread between people who a re in close
contact with o ne a nother for a sustained period. A person may also become infected by
"touching a surface or object that has the virus on it a nd then touch ing their own nose,
mouth, or possibly their eyes." (Edwards Pls.' PFOFs (dkt. #417) ,i 27 (quot ing Goode
D eel., Ex. I (CDC, T argeting COVID-l 9's Spread) (dkt. #415-9) .) Certain individuals,
such as those who are elderly, immunocompromised or suffer comorbidit ies, are at a greater
risk for complications from COVID- 19.
As the virus first started to spread in Wisconsin in February a nd March, even greater

uncertainty surrounded the extent, seriousness and nat ure of COVID-1 9 . By March 12,
Governor Evers had issued a statewide health emergency; and on March 24, the Secretary
of Wisconsin's Department of H ealth Services had issued a "Safer at H ome" order, which
banned all public and private gatherings, closed nonessential businesses, and required tha t
everyone maintain social distancing of a t least six feet from any o ther person.
Obviously, all this occurred within just a few weeks of Wisconsin's April 7, 20 20 ,
primary election. In mid-March, certain W EC Commissioners began expressing concern
about the state's ability to conduct a fai r and safe election; local clerks reported that they

Technically, SARS-CoV-2 is the name of what has become known as the "coronavirus," while
COVID-19 is the name of the illness caused by that virus.
8

43a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 11 of 69

were running out of absentee ballot materials and felt overwhelmed by the volume of
absentee ballot requests; and various mayors urged that the election be delayed. Between
March 18 and March 26, three lawsuits were also filed with this court requesting various
relief relating to Wisconsin's impend ing primary election.
Shortly after, this court granted the following narrow, preliminary relief:

(l )

extend ing the online registration deadline by 12 days to March 3 0; (2) e:ll..'tending by one
day the window to request an absentee ballot; (3) adjusting the witness certification
requirement under Wis. Stat. § 6.87(2); and (4) extending the absentee ballot receipt
deadline by six d ays to April 13 at 4 p .m . See Democratic Nat'l Comm. v. B ostelmann, No.
20-cv-249 (W.D . Wis . Mar. 20, 2020); D emocratic Nat'l Comm. v. Bostelmann, No. 20-cv249 (W.D . Wis. April 2, 2020 ). Most of this relief was challenged by emergency appeal
to the Seventh Circuit (extension of the registration dead line being th e except ion). T hat
court declined to stay relief granted as to the extension of absentee-ballot-requests and
receip t deadlines by mail, bu t granted a stay as to the ad justment to the witness signature
requirement. Democratic Nat'l Comm. v. Bostelmann, Nos. 20-1538, -1546, -1545, at* 3-4
(7 th Cir. April 3, 2020 ). A further, emergency appeal was accepted by the U.S. Supreme
Court, which sought a stay of this cou rt's injunction only to the extent that it permitted
ballots postmarked after election day (Ap ril 7) to be counted if actually received by April
13 . Brief of Petitioner, Republican Nat'! Comm. v. Democratic Nat'l Comm., 589 U. S. __
(2020 ) (No. _ ) . T he Su preme Cou rt granted the stay, ordering that a voter's absentee
ballot must be either postmarked by election day and received by April 13 or handdelivered by election day. Republican Nat'l Comm. v. D emocratic Nat'! Comm., 589 U.S. __

44a
44a
Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 12 of 69

(2020) (per curiam).

2. Effort to fulfill absen tee ballot applications
Meanwhile, the WEC and local clerks were undertaking admirable (and in some
cases, heroic) efforts to administer absentee voting a nd prepare the polls for in-person
voting on April 7 in the midst of the pandemic. Despite these e ffo rts, unprecedented
challenges confronted clerks and poll workers before and on election day. To begin, clerks
received a flood of absentee ballot requests, ultimately receiving a total of 1,282,762
absentee ballot applications .9 A post-election report by the WEC explained that some
inadeq uately staffed offices were "nearly overwhelmed" by this number of applica tions.
(Swenson Pls.' PFOFs ('459, dkt. #42) 1156 (citing Goodman Deel., Ex. 18 (WEC May 20
Meeting Materials) ('45 9 d kt. #43-18) 6).) At one point, clerks even ran out of absentee
certificate envelopes, although this shortage was ultim ately rectified.

Plaintiffs have

produced numerous declarations from voters who testified tha t they timely -- often two or
three weeks before the election -- requested an absentee ballot but never received it or
received it after election day; some of these voters chose to vote in person, but others were
unwilling or unable to go to the polls d ue to safety concerns with COVID -19, long lines or
other problems.

(See Swenson Pls.' PFOFs ('459, dkt. #42) 1111 51 , 164, 176 (citing

declarations); DNC Pls.' PFOFs (dkt. #419) 11 73 (citing declarations); Edwards Pls.'
PFOFs (d kt. #417) 111167-162, l 77-8 1) (citing declarations); Gear Pls.' PFOFs (dkt. #422)
1111 37, 43, 8 1, 157-677 (citing decla rations).)

9

In comparison, only 167,832 absentee ba llots were sent in the April 20 19 election.

45a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 13 of 69

Moreover, between April 3 and April 6 ( the day before the election), local officials
were still in the process of mailing more than 92,000 absentee ballots to voters, virtually
all of which the W EC acknowledges were sent too late to be filled ou t a nd mailed back by
election day. 10 On top of this group, data from the W EC as of April 7 ind icates that a t
least a n additional 9,388 ballots were applied for timely but were never even sent out. T he
W EC advises tha t due to a reporting lag this number was lower, bu t does not indicate by
how m uch .
At least some of these problems were rooted in ma il delivery issues, wh ich led to
some absentee ballo ts reaching voters or clerks late or not at all. For example, a W EC staff
member received a call from a United States Postal Service ("USP S") official in Chicago
on April 8, who reported that "three tu bs" of absentee ballots from the Ap pleton/Oshkosh
area had been found undelivered in a post office in Ch icago, although the Legislat ive
defendants and the RNC/RPC point o ut that these tubs were d ropped off at USPS at the
end of the day on April 7 (see Leg. D efs. ' & RNC/RPW Resp. to D NC Pls.' PFOFs (dl<:t.
#450 ) ,i 84).

Similarly, in Fox Point, a bin containing abou t 175 u nopened and

undelivered ballots was inexplicably returned to the clerk's office on the morning of
election day.
Voters also reported problems with satisfying the requirements for req uesting a nd

Adm inistrator Wolfe testified that it may take 14 days for an absentee ballot to make its way
through the mail from a clerk's office to a voter and back again , and even under ideal conditions
with a two-day first class mail delivery time, a mailed ballot would take at least four to six days to
turn around. (Swenson Pis.' Supp. PFOFs (dkt. #494) ,i 62 (citing Wolfe Dep. (dkt. #247) 51 :121 ).)
•0

46a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 14 of 69

casting their absentee ballots. For example, some voters testified that they had difficulties
uploading their photo ID to the online system or otherwise providing the required ID
needed to request an absentee ballot. 11

(DNC Pls.' PFOFs (dkt. #419) ,i 68 (citing

declarations) .)

3. Efforts to count absentee ballots
Further, while the WEC issued guidance regarding the safe execution of the witness
signature requirement before voting and returning an absentee ballot itself, plaintiffs'
expert opined that this complicated advice was not easy to follow. (Swenson Pls.' PFOFs
('459, dkt. #42) ,i 81 (citing Remington Expert Report ('459 dkt. #44)) .) For example,
plaintiff Jill Swenson testified that she spent two weeks trying to find someone to witness
her ballot in a safe manner, ultimately to no avail. (See Swenson Deel. ('459 dkt. #47) ,i,i
11-13.) Relying on this court's preliminary injunction modifying the witness signature
requirement in light of such issues, Swenson eventually mailed her ballot without a witness
signature, only to find out later that this court's order was stayed on appeal. (Id.) Other
voters also testified that they did not cast their absentee ballot, or they cast their ballot
without the proper certification, due to COVID-19-related safety concerns regarding the
witness requirement. (See D NC Pls.' PFOFs (dkt. #419) ,i,i 157-60 (citingdeclarations) .) 12
In addition, although many ballots arrived with no postmarks, two postmarks or unclear
Defendants do not d ispute that some voters testified to difficulties w ith uploading their photo ID
to the on.line system (or could otherwise not provide the required ID needed to request an absentee
ballot), but as discussed further in the opinion below, none o f the declarations persuasively establish
that the ID requi rement was or will be difficult to satisfy for most desiring to vote absentee.
11

As was conceded in the hearing, none of the plaintiffs produced any evidence of a voter who was
ultimately w1able to meet the proof of residence requirement.
12

47a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 15 of 69

postmarks, on this issue, the guidance issued by the WEC simply left it up to each
municipality to determine whether a ballot was timely.
In the e nd, 120,989 voters who requested absentee ballots d id not return them as
of election day, although what portion of these voters ended up vo t ing in-person on
election day or why they did not is unknown. Even fo r those absentee ballots that did
reach clerks' offices, more than 14,000 ballots were rejected due to an "insufficient" witness
certification and "thousands" were rejected for other reasons. (Swenson Pis.' PFOFs ('459,
dkt. #42) 11 9 0 .) However, the WEC maintains that "the final election data conclusively
indicate[d] that the election did not produce an unusual number [of] unreturned or
rejected [absentee] ballots," adjusting for the larger number of absentee votes submitted.
(WEC Resp. to Swenson Pis.' PFOFs (dkt. #439) 11 74.)
All told, absentee ballots represented 73.8% of all ballots counted. Approximately
61.8% of absentee ballots were mailed in, while the remaining 12% were cast in-person
absentee or hand-delivered, meaning only roughly 26.2% were cast on elect ion day.
Absentee votes never comprised more 20% of all ballots in recent past elections, and often,
they represented less than l 0 % of ballots cast. The WEC itself stated in a report that the
increase in absentee voting "created resource issues for a system primarily designed to
support polling place voting."

(Swenson Pis.' PFOFs ('459, dkt. #42) 11 50 (quoting

Goodman D ed., Ex. 18 (WEC May 20 Meeting Materials) ('459, dkt. #43-18) 19-21 ).)

4. Election day vo ting
As for voting on the actual election day itself, April 7, 2020, severe shortages of poll
workers caused significant problems in some jurisdictions. I n particular, because of the age

48a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 16 of 69

and health concerns of poll workers who declined to volunteer, Milwaukee was o nly able
to open five of its usual 180 polling sites, and G reen Bay reduced its usual 3 1 polling sites
to just two. I n part due to t his consolidation , some individuals had to wait in long lines,
sometimes for hours before being allowed to vote. While Governor Evers authorized the
W isconsin National Guard to serve as poll workers, he only d id so o n April 2, less than
o ne week before the election. In addition, while the W EC was able to send sanitation and
personal protective equipment ("PPE") to all polling sites, some supplies were limited or
inadequate. Some poll workers even reported that they had to rely on vodka as a san itizer.
Moreover, the W EC did not issue any part icular mandate requiring specific public health
measures to be taken by clerks or poll workers. Finally, voters and poll workers reported
various perceived safety problems, including: (l) cramped polling locations that made it
d ifficult to maintain social d istancing; (2) no enforcement of social distancing by poll
workers; (3) a lack of or improper mask-wearing by voters and poll workers; (4) poll
workers' reuse of paper towels to clean voter booths between voters; (5) a lack of sanitized
pens; and (6) poll set-u ps requiring poll workers to sit approximately two feet from each
other.
Plaint iffs also cite to vario us declarations to highlight the d ifficulties faced by some
citizens who sought to vote in-person in the April elect ion. (See DNC Pls.' PFOFs (dkt.
#4 19) ,111 62-66 (cit ing declarations) .)

For example, although Jeannie Berry-Matos

requested and received a n absentee ballot, it was for the wrong ward; unable to correct the
error in time, she then was forced to vote in person on April 7 at Washington H igh School
in M ilwaukee.

(D NC Pls.' PFOFs (dkt. #4 19) ,i 62 (citing Berry-Matos Deel. (dkt.

49a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 17 of 69

#263)).)

When Berry-Matos arrived, she found a line stretching several blocks, no

available close parking, no poll workers enforcing social distancing, and no way to sanitize
her pen or her photo ID. (Id.) All in all, it took her an hour and thirty-five minutes to
vote in person. (Id.) Other voters who requested but did not receive absentee ballots
similarly showed up at the polls to vote, but concerned about safety and confronted with
long lines, they ultimately did not cast their vote. (DNC Pls.' PFOFs (dkt. #419) 1111 6366 (citing Wortham D eel. (dkt. #367); Moore Deel. (dkt. #330); Washington D eel. (dkt .
#363)); see also Gear Pls.' PFOFs (dkt. #422) 1111 236-38, 468-70, 599-602, 627 (citing
declarations).)
Overall, 1,555,263 votes were cast in the April election. This court's injunction
extending the absentee ballot physical receipt deadline from April 7 to April 13 appears to
have resulted in approximately 80 ,000 ballots being counted that would have othe1wise
been rejected as untimely. (DN C Pls.' PFOFs (dkt . #419) 11 10.) In addition, the court's
injunction extending the registration deadline arguably resulted in an estimated 5 7, 187
voters successfully registering in advance. (Id. 11 197.) Of course, absent the court's
injunction some portion of those voters may have opted to register to vote in person on
election day just before voting, rather than sending their absentee ballot by mail.
Pla intiffs point to expert reports concluding that COVID-19 and its effects reduced
voter turnout in the election. (See Swenson Pls.' PFOFs ('459 dkt. #41) 11 13 1 (citing
Fowler Expert Report ('459 dkt. #46)); D NC Pls.' PFOFs (dl, t. #419) 11111 (citing Burden
Deel. (dkt. #418)).) Still, 34.3% of eligible voters cast a ballo t in the April election; in
comparison, the turnout for previous spring primary elections was 27.2% (2019), 22.3%

50a
50a
Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 18 of 69

(2018), 15.9% (2017 ), 47.4% (2016), 26. 1% (20 12), and 34.9% (2008) .

5. COVID-19 impacts on in-person voting
As for the relationship between Wisconsin's April election and COVID-19

transmission in the state, the parties point to arguably conflicting reports on this subject.
Plaintiffs note that a Wisconsin D epartment of H ealth Services analysis traced 71 cases of
COVID- 19 to in-person voting in April. (Edwards Pls.' PFOFs (dkt . #41 7) 11 4; DNC Pls.'
PFOFs (dkt. #419) 116.) Similarly, expert witness Meagan Murry, M.D., an epidemiologist
at Harvard School of Public Health, reported "7 1 confirmed cases of Covid-19 among
people who may have been infected during the election." (Swenson Pls.' Supp. PFOFs
(dkt. #494) 11 5 (quoting Muny Deel. (dkt. #370) 11 60).) They also reference a working
paper, which concludes that in-person voting led to approximately 700 additional COVID19 cases in Wisconsin. (Edwards Pls.' PFOFs (dkt. #417) 11 4 .)
The Legislative defendants and the RNC/RPW, for their part, point to two reports
concluding that the April election was not associated w ith an increase in COVID-1 9
infection rates. (Leg. D efs.' & RNC/RPC' s Resp. to Swenson Pls.' PFOFs (dkt. #451) 1111
7, 36 (citing Tsey tlin D eel., Exs. 18, 19 (dkt. ##458-18, - 19).) 13

The Legislative

In particular, d efendants cite to a report authored in part by tvvo ind ividuals affiliated with the
World Health Organization Collaborating Centre for Infectious Disease Epidemiology and Control,
which purported to analyze confirmed COVID-1 9 cases in the weeks surrounding the April 7
election, and found that the election was not associated with an increase in COVTD-19 infection
rates. (Tseytlin Deel., Ex. 18 (dkt. #458-18).) They also cite to a second report authored by
individuals affiliated with the Larkin Community Hospitals in Miam i, the Department o f Math
and Statistics at the University of South Alabama, and the Froedtert & The Medical College of
Wisconsin in Milwaukee. (Tseytlin Deel., Ex. 19 (dkt. #458-19).) This report concluded that:
"There was no increase in COVTD-19 new case daily rates observed for Wisconsin or its 3 largest
counties following the election on April 7, 2020, as compared to the US, during the post-incubation
interval period." (Id.)
13

51a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 19 of 69

defendants and the RNC/RPW also point out that the Wisconsin OHS explained that it is
"not clear how many of the infections may have been caused by the spring election because
many of the people had other exposures." (Leg. Defs.' & RNC/RPW's Resp. to Edwards
Pis. ' PFOFs (dkt. #485) ,r 3 .)
After the court's evidentiary hearing in this case, Wisconsin also held another
primary election on August 11 . Evidence presented by the parties prior to the election
suggested that certain localities again had to consolidate polling locations due to poll
worker shortages. For example, Sun Prairie expected to consolidate e ight polling places
down to one. The WEC told municipalities "not to plan on" assistance from the National
Guard (Swenson Supp. Pis.' PFOFs (dkt. #494) ,r 94), but the parties represented that
Governor Evers ultimately did deploy the Guard to assist with the election on August 5,
less than one week before the election. In the end, both the April and August elections
suggest that in-person voting can be conducted safely if the majority of votes are cast in
advance, sufficient poll workers, polling places, and PPE are available, and social distancing
and masking protocols are followed. Of course, the aged, those with comorbidities or those
lacking confidence in the ability of local officials and the public to get all those factors right
are understandably less confident in that assessment.

C. Plans for the November Election in Light of the Ongoing COVID-1 9
Pandemic
While the exact trajectory of COVID-19 in Wisconsin is unknown, the unrebutted
public health evidence in the record demonstrates that COVID-19 will continue to persist,
and may worsen, through November. Recent outbreal<.s, particularly among Wisconsin

52a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 20 of 69

college students, and the onset of flu season continue to complicate assessments. For
example, concern remains that the significant new infections reported on reopened college
campuses may spread into the community. David Wahlberg, UW-1\11.adison threatens 'more
drastic action' as experts say COVID-19 outbreak impacting broader community, Wis. State

Journal (Sept. 16, 2020), https://mad ison.com/wsj/news/locaVeducation/university/uwmadison-threatens-more-drastic-action-as-experts-say-covid- 19-ou tbreak.-impactingbroader-com munity/article_dd00c9cc-5 dc9-5 924-99ca-40c94a0f67 3 8.html. Indeed , with
flu season yet to arrive, Wisconsin has already broken n umerous new case records this
month, with over 2,000 new cases reported on September 17, 2020, up from a d a ily average
of 1,004 just one week prior. See WPR Staff, Wisconsin Sets New Daily R ecord with 2,034
Coronavirus

Cases

R eported

Thursday,

Wis.

P ublic

Radio

(Sep t.

17,

2020),

https://vvww.wpr.orglwisconsin-sets-new-da ily-record-2-034-coronavirus-cases-reportedthursday.

Regardless, given the significantly h igher voter t urnout expected for the

November election in comparison with April, there is little doubt that the WEC, clerks and
voters will again face u nique challenges in the upcoming election. As a result, the WEC is
already urging as many people as possible to vote absentee in the hopes of avoid ing large
lines, shortages and attendant health risks on election day.
Moreover, the evidence suggests that Wisconsin voters will again rely heavily on the
absentee voting system for the November election, with the W EC expecting some 1. 8 to 2
million voters to request an absentee ballot, again smashing all records and turning historic
voter patterns on their head. Unfortunately, Madison City C lerk Maribeth Witzel-Behl
testified that at least her office "has not been given the resources and money necessary to

53a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 21 of 69

meet the anticipated demand for mail-in absentee ballots in November," and "with other
departments going back to work, [her] staff now only has a few dozen League of Women
Voters volunteers available to help ." (Gear Pis.' Supp. PFOFs (dkt. #506)
Witzel-Behl Ded. (dkt. #382)

20 (quoting

6).)

As previously discussed, the absentee ballot system in Wisconsin is also heavily

reliant on the USPS, which has and continues to face its own challenges.

WEC

Administrator Wolfe in particular acknowledged "s ignificant concerns about the
performance of the postal service in connection with the April 7 election." (DNC Pls.'
PFOFs (dkt. #419)

140, 142 (quot ing Wolfe Dep. (diet. #247) 89:10-15).) I n addition,

a report by the USPS Inspector General's Office found that voters requesting ballots five
days before the election -- the deadline set by Wisconsin statutes -- face a "high risk" that
their ballot will not be delivered, completed and returned in time to be counted. (Swenson
Pls.' Su pp. PFOFs (dl<.t. #494)

61 ( quoting Second Goodman Ded., Ex. 17 (T imeliness

of Ballot Mail) (dl<.t. #495 -17) 6-7) .)

USPS also faces budget shortfalls, as well as

challenges caused by increasing COVID-19 rates among postal workers themselves.
Moreover, just a few weeks ago, the new Postmaster General established "major operational
changes ... that could slow down mail delivery," including restricting the ability for USPS
employees to work overtime. (DNC Pis.' Supp. PFOFs (dkt. #501)

7-8.)

As to fulfilling the witness signature requirement, over 600,000 Wisconsinites live

alone and even more live with a n individual who is unqualified to be a witness. Prospective
absentee voters in that situation will need to find someone outside of their household to
witness their ballot before returning it. Accord ing to plaintiffs' expert, a "significant"

54a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 22 of 69

portion of voters who do not live with a q ualified witness are senior citizens, who also face
special risks of complications from COVID- 19. (D NC Pis.' PFOFs (dkt. #419) 11 153
(citing Fowler Rep. ('459 d kt. #46) 12-13).)

Related ly, a nother expert prod uced by

plaintiffs opined that the WEC's guidance on the witness sig nature requirement "m ay be
d ifficult to understand by the homebound individual and witness" and "may be impractical
in certain situa tions, such as for persons living in multi-level or multi-unit apa rtment
complexes." (Swenson Pis.' PFOFs ('459 dkt. #42) 11 8 1 (citing Remington Rep. ('459 dkt .
#44)) .) That being said, notwithstanding a few, individ ual affiants who had experienced
difficulties securing a witness signature requirement or submitting proof of ID for the April
election, the Legisla ture points out tha t plaintiffs prod uced no evidence of voters who are
still unable to meet the challenged requirements for November. 14
In-person voting in November is also likely to be strained by a shortage of poll
workers, despite more time to plan for that shortage than was available for the spring
election . On the one hand, Milwaukee officials testified that they hope to be able to open
all 180 polling sites (up from five in April) , a nd Green Bay expects to have at least 13
polling locations (up from two in April). On the other hand, clerks are still reporting poll
worker shortages for November.

Similarly, WEC Administrator Wolfe testified tha t

The DNC plaintiffs also contend that: "many workplaces, public lib raries, and copy shops may
remain or become closed given the pandemic's acceleration in the U.S., many voters will continue
to face substantial burd ens in obtaining the copies or scans they need to complete their absentee
ballot applications and will continue to be prevented from voting. In addition, even if those
establishm en ts were open, many voters are fearful of leaving their homes because of the health risks
of the coronavirus pandemic and the restrict ions imposed under their respective County's health
orders." (DNC Pis.' PFOFs (dkt. # 4 19) ,i 164.) Again, however, the only evidence they cite in
support is voter d eclarations expressing fear of in-person voting due to COVlD-19 , rather than a
personal inability to arrange an effective witnessing of their ba llot.
14

55a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 23 of 69

"despite the advance warning [and] the greater time to plan for people who will opt-out
because of COVID-19 risks, local municipalities are still having problems filling all their
polling stations." (8/5/20 Hr'g Tr. (dkt. #532) 82.) Because of this, Wolfe explained a
lack of poll workers was the thing she "worr[ies] about the most" for the upcoming
November election. (Id. at 83.)
More fu ndamentally, plaintiffs have produced a credible expert report that
concludes in-person voting in November will continue to pose "a significant risk to human
health" due to the COVID- 19 pandemic. (Swenson Pls.' PFOFs ('459 d kt. #42)

,i

7 (citing

Remington Expert Report ('459 dkt. #44)) .) While not disputing this risk, the WEC
counters with the general observation that the risk of transmission is "greatly reduced" if
people are wearing masks and practicing social distancing. (WEC Resp. to Swenson Pls.'
PFOFs (dkt. #439)

,i

7.) The Legislative defendants and the RNC/RPC further dispute

any suggestion that in-person voting in November will be unsafe, again pointing to the two
studies concluding that the April election was not associated with an increase in COVID19 infection rates. (See (Leg. & RNC/RPW's Resp. to Swenson Pls.' PFOFs (dkt. #451)
,i,i

7, 36 (citing Tseytlin D ed., Ex. 18, 19 (dkt. ##458-18, -19)).) At minimum, the

evidence continues to suggest that a large election day turnout will stretch safety protocols
and increase risk of transmission particularly to poll workers, which is why the WEC has
continued to promote voting by mail.
Regardless of the objective risks, plaintiffs have also produced declarations fro m
various voters who aver that if unable to vote by ma il, they will not vote in-person in
November. (See Gear Pls.' PFOFs (dkt. #422) ,i,i 186,2 15,279,323,355,387,407 (citing

56a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 24 of 69

various voter declarations ).) Others declare that they intend to vote by mail in November,
but would like a "back-up" option, because of their previous personal experie nces in not
receiving an absentee ballot for the April elect ion despite requesting it timely. (See id. 1111
445,474,501, 576, 633, 669 (citing various voter declarations) .)
In preparation for these anticipated challenges in adm inistering the November
election, the WEC has taken a number of steps. Of particular note, the WEC mailed
absentee ballot applications to nearly all registered voters. The application itself contains
an information sheet, which among other things gene rally describes the "indefinitely
confined" exception to the photo ID requirement, but does not indicate what constitutes
"indefinitely confined" under Wisconsin law. I nstead, the instructions warn a prospective
voter may be fined $ 1,000 or imprisoned up to 6 months for falsely asserting tha t they are
indefinitely confined. This mailer wen t out on September l st.
In addition to encouraging Wisconsinites to vote absentee, the WEC has also: ( l )
directed staff to spend federal CARES Act grant money to distribu te sanitation supplies to
all 72 counties in Wisconsin; (2) planned to implement intelligent mail barcodes ("IMB")
to facilitate more detailed absentee-ballot tracld ng; (3) planned to spend up to $4. l millio n
on a CARES Act su b-grant to local election officials to help pay for increased elections costs
caused by the pandemic; (4) made upgrades to the MyVote website; (5) issued guidance
to local officials about providing drop boxes for the safe and easy return of absentee ballots;
(6) made CARES Act subgra nt money available for the purchase of additional, absentee
ballot drop boxes; (7) urged localities to solicit election inspectors, create recruitment tools
for local officials, and promote the need for poll workers; (8) produced content to educate

57a

Case: 3:20-cv-00249-wmc Document #: 538 Filed : 09/21/20 Page 25 of 69

voters on "unfamiliar aspects of voting" for use by local election officials, voter groups, and
the public; (9) worked with public health officials to produce pu blic health guidance
documents for clerks, poll workers, and the public; and ( l 0 ) developed a webinar series for
local officials to provide training o n election procedures, includ ing COVID- 19-specific
training. Just as in Ap ril, what the WEC has not done is ease an y of the statutory deadlines,
having again concluded on a 3 -3 vote that it lacks the au thority to do so even in the face
of the anticipated effects of the COVID-19 pandemic.

OPINIO N

I. Motions to Dismiss
As an initial matter, the court will add ress certain issues raised in defendants'
pend ing motions to d ismiss, considering first various jurisd ictional challenges and then
arguments that some of plaintiffs' claims must be d ismissed for failure to state a claim on
which relief m ay be granted. 15

Specifically , the WEC moved to dismiss the Swenson plai ntiffs' complaint (see WEC's Mot. to
D ismiss ('340, dkt. # 14) ), and the Legislative defendants moved to dismiss the Gear, Edwards an d
Swenson plaintiffs' operative complaints (see Leg. Defs.' Mot. to D ismiss Gear Comp!. ('2 78 dkt.
#382); Leg. Defs.' Mot to D ismiss Edwards Comp!. ('340 dkt. # 12 ); Leg. Defs.' Mot to D ismiss
Swenson Comp!. ('459 dkt. ##27, 272) ). Although the WEC also in itially moved to d ismiss the
Gear plaintiffs' original complaint, after the Gear plaintiffs ' filed a proposed, first amended
complaint, plaintiffs filed a joint stipulation w ith the WEC, which withdrew the WEC's pend ing
motion to dismiss the first amended complaint, while reserving its right to answer, move or
othenvise plead in response to the second amended complaint. (Joint Stipulation (dkt. #230).)
Finally, although the Legislative defendants d id not formally move to d ismiss the DNC plain tiffs'
second amended complaint (the court having previously denied thei r motion to dismiss the DNC
plaintiffs' first amended complaint ( 6/ 10/20 Op. & Order (dkt. #2 17) ), they argued in their briefing
that "especially after Luft, the DNC Second Amended Complaint must be dismissed for many of
the same reasons supporting d ismissal of the operative complaints in Gear and Swenson." (Leg.
Defs.' Omnibus Br. (dkt. #454) 5 n.3.)
15

58a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 26 of 69

A. Jurisdictional Challenges
In evaluating challenges to its subject matter jurisdictio n, this court "must accept as
true all well-pleaded factual allegations and draw reasonable inferences in favor of the
plaintiff. " R ueth v. EPA, 13 F.3d 227, 229 (7th Cir. 1993) (quoting Capitol Leasing Co. v.

F.D.I.C. , 999 F.2d 188, 191 (7th Cir. 1993)). Still, the court may "properly look beyond
the jurisdictional allegations of the complain t and view whatever evidence has been
submitted on the issue to determine whether in fact subject matter jurisdiction exists."
Capitol Leasing Co., 999 F .2d a t 191 .

The WEC argues that no actual controversy exists between that entity and plain t iffs'
since the WEC neither opposes nor su pports plaintiffs' requests fo r injunctive relie f (WEC
Br. ('340, dkt. #15) 4-5), and for a case to be justiciable, there must be a n actual dispute
between adverse lit igants. (See id. (citing Oneida Tribe of Indians v. Wisconsin, 951 F.2d 757,
760 (7th Cir. 199 1 ).) However, as the U .S. Supreme Court held in United S tates v. Windsor,
5 70 U.S. 744 (20 13), "even where 'the Government largely agree[s] with the opposing
party on the merits of the controversy,' there is sufficient adverseness a nd an 'adequate
basis for jurisdiction in the fact that the Government intended to enforce the challenged
law against that party."' Id. at 759 (quoting INS v. Chadha, 462 U. S. 9 19, 940 n . 12
( 1983)). Similarly, in this litigation, the WEC has indicated its inte ntion to enforce
Wisconsin's current elections laws unless othe1wise directed by a state o r federal court.
Thus, regardless of its failure to d ispute plaintiffs' requested relief affirmatively, sufficient
adverseness exists between the parties to create a justiciable dispute. Of course, by virtue
of the intervention by multiple other defendants who are actively d isputing plaintiffs' right

59a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 27 of 69

to any of the relief requested, there is little q uestion that there is an actual dispute between
the parties needing resolution by this court.
Next, both the WEC and the Legislative defe ndants a ttack plaintiffs' claims on
standing grounds.

T o establish standing, "[ t]he plaintiff must have suffered or be

imminently threatened with a concrete and particularized 'injury in fact' that is fairly
traceable to the challenged action of the defendant and likely to be red ressed by a favorable
judicial decision." Lexmark Int'l, Inc. v. Static Control Components, Inc., 572 U.S. 118, 125
(2014) (citing Lujan v. Defenders of Wildlife, 504 U.S. 555,560 (1992)) . Again, the WEC
maintains that it has "no power to enact any changes to the election laws in regard to the
Spring Election, and it has no authority to change the law relative to the conduct of future
elections." (WEC Br. ('340, dkt. # 15) 6.) After Windsor, however, this is just the same
"case or controversy" argument in different clothing, since the WEC's adm inistration of
Wisconsin's elections, including the enforcement of its current election laws, is the cause
of plaintiffs' alleged injuries. Moreover, the WEC has the authority to implement a federal
court order relating to election law to redress these alleged injuries.

That the WEC

maintains it lacks any independent authority under state law to make the changes requested
by plaintiffs poses no jurisdictional barrier. If anything, it demonstrates the WEC is an
indispensable party for plaintiffs to achieve the remedies they seek.
Relatedly, the Legislative defendants argue that many of plaintiffs' claims challenge
independent actions of third-parties who were not named as defendants -- specifically, the
USPS and local election officials -- and th us plaintiffs' lack standing to bring those claims.
(Leg. Defs.' Omnibus Br. (dkt. #454) 100.) Certainly, actions of both the USPS and local

60a
60a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 28 of 69

election officials appear to have contributed and may contribute to plaintiffs' alleged
injuries, and those third-parties may also have some power to redress those injuries, but
this does not mean the WEC's actions or inactions were not also causes of plaintiffs'
injuries. What matters for stand ing is that: ( l) defendant's conduct was one of the multiple
causes; and (2) defendant can at least partially redress the wrong. See WildEa,th Guardians
v. U.S. Dep't ofAgric., 795 F.3d 1148, 1157 (9th Cir. 2015) ("So long as a defendant is at

least partially causing the alleged injury, a plaintiff may sue that defendant, even if the
defendant is just one of multiple causes of the pla intiff's injury."); Orangeburg v. Fed. Energy
R eg. Comm'n, 862 F.3d 1071, 1077-84 (D .C. Cir. 2017) ("FERC contends that the

causation elemen t is not satisfied because Orangeburg's injmy is actually caused by NCUC,
an absent third party, not the Commission. To be sure, NCUC -- a non-party -- is a key
player in the causal story. But the existence of, perhaps, an equally importa nt player in the
sto1y does not erase FERC's role.").
Similarly, here, the actions of the USPS a nd local election officials may be equally
important players in the conduct of the November election but that does not erase the
WEC's overall statuto1y responsibility for the administration of Wisconsin's elections.
Wis . Stat. § 5 .05 ( l) . Regardless, it is the WEC's role and specific authority to promulgate
rules and guidance to localities in order to implement Wisconsin law (includ ing any court
order) related to elections and their proper administration u nder § 5 .05 ( l )(f) that is in
dispute. Moreover, should this court en ter a binding order, the WEC will be required to
issue updated rules, procedures, o r formal advisory opinions under§ 5 .05(5t) to ensure its
implementation. This is more than enough to establish standing.

61a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 29 of 69

The Legislative defendants further lodge a narrower standing challenge against just
one of the Swenson plaintiffs' ADA claims. (See Leg. Defs.' Omnibus Br. (d k t. #454) l 0508.) Specifically, they contend the Swenson plaintiffs lack standing to pursue a claim tha t

the WEC's failure to provide accessible online ballots impermissibly discriminates against
voters with vision or other print d isabilities because none of the Swenson plaintiffs have
such a disability.

(See id.) As the Swenson plaintiffs point out, however, they have

produced evidence that D isability Rights Wisconsin (one of the na med plaintiffs in the
Swenson complaint) has itself been injured by the alleged violation of the ADA, as it has
had to divert its own resources to assist vo ters with those disabilities to both get access to
and cast absentee ballots. (See Swenson Pls.' Reply (dkt. #493) 21.) Because D isabilities
Rights Wisconsin has alleged a concrete and particularized inju1y to its own in terests, a nd
advocate for the interests of others with relevant disabilities, the Swenson plaintiffs have
established standing to p ursue their claim regarding accessible online ballots. See H avens

Realty Corp. v. Coleman, 455 U.S. 363, 378-80 ( 1982) (holding that organization tha t had
to divert resources to m it igate effects of allegedly discriminato1y practices had sta nding
b ring suit).
Finally, the Legislat ive defendants contend that plain t iffs' cla ims are unripe and
should be dismissed unde r the Bu,ford absten tion doctrine. Little time need be spen t on
these contentions because the court previously addressed nearly iden tical arguments in an
earl ier opinion and order. (See 6/10/20 Op. & O rder (dk t. #217).) The court finds no
reason to d epart from its earlier conclusion tha t plaintiffs' cla ims are ripe and fit for judicial
review, p resenting an "actual and concrete conflict premised on the near-certa in

62a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 30 of 69

enforcement of the challenged provisions in the context of the present and ongoing
COVID-19 health care crisis" and because plaintiffs are "likely to suffer adverse
consequences if the court were to require a later challenge." (Id. at 7-8.) Further, as
previously explained , the B u,ford abstention d octrine is not applicable to any of the cases
or controversies before this cou rt because Wisconsin state cou rts "are not specialized
tribunals with a special relationship with voting rights issues" and because Burford
abstention is often "inappropriate in federal constitu tional challe nges to state elections
laws." (Id. at 17-18.)

B. Failure to State a Claim
Dismissal unde r Rule 12(b)(6) is proper "when the allegations in a complaint,
however true, could not raise a claim of entitlement to relief." Bell Atl. Corp. v. Twomb!.JJ,
550 U.S. 5 44, 558 (2007). To survive a motion to dismiss, a complaint must "plead[]
fact ual content that allows the court to draw the reasonable inference that the defendant
is liable for the miscond uct alleged." Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Certain of plaintiffs' claims are plainly barred by immu nity doctrines, and thus, fail
to state a claim. First, to the extent tha t any plaintiffs seek money damages pursuant to
§ 1983, such relief is barred by state sovereign immunity. See Will v. Mich . D ep't of State

Police, 491 U.S. 5 8, 64, 66 ( 1989).

Second, the Edwards plaintiffs' claims against

Wisconsin State Assembly Speaker Robin Vos and Wisconsin State Senate Majority
Leader Scott Fitzgerald are foreclosed by the doctrine of legislative immunity, which
provides absolute immunity from liability for an official's legitimate legislative activity. See
Bogan v. Scott-Harris, 523 U.S. 44, 49 ( 1998); Tennry v. B randhove, 34 1 U.S. 367, 376

63a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 31 of 69

( 1951 ). T he Edwards plaintiffs' complaint faults Speaker Vos a nd Majority Leader
Fitzgerald fo r failing to take action to postpone the April election or o therwise enact
measures regard ing Wisconsin's elections in the face of the pandemic, but any decision not
to act qualifies as legislative activity protected by absolu te immunity. See N RP Holdings
LLC v. City of B uffalo, 916 F.3 d 177, 192 (2nd Cir. 2019) (decision not to introduce

resolut io ns before city council was protected legislative activity) .
The Edwards plaintiffs' only response to defendants' invocation of legislative
immunity is to assert without legal authority that it applies only to state law claims. (See
Edwards Pis.' Br. ('340, dkt. #25) 16.) T o the contrary, the immunity d octrine is a
creature of federal common law and applies to federal civil claims. See Bogan, 523 U.S. at
48 (explaining that the U.S . Constitution and federal common law "protect[s] legisla tors
from liability for their legislative activities"); N RP H oldings LLC, 916 F.3d at 190
(describing the doctrine of absolute legislative immunity as a matter of common law
created by the U.S. Supreme Court and applicable to federal civil claims).
Oddly, having asserted immunity on their behalf, the Legislative defendants
nevertheless urge the court to permit Speaker Vos and Majority Leader Fitzgerald to
remain as parties to defend state law. ( Leg. D efs.' Br. ('340 , dkt. # 13) 30-3 1.) In doing
so, they, too, cite to no legal basis for a defendant to be found immune from suit yet remain
as a party. (See id.) Even if there were some legal basis to allow the defendants to remain,
this court has previously held that an ind ivid ual "legislator's personal su pport [of a law he
or she enacted] does not give him or her an interest sufficient to support intervention." See
One Wis. Inst., Inc. v. Nichol, 3 10 F.R.D. 394,397 (W.D. Wis. 2015) (ci ting B uquer v. City

64a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 32 of 69

of Indianapolis, No. ll-cv--0070 8, 2013 W L 1332137, at *3 (S.D . I nd. Mar. 28, 2013),
Am. Ass'n of People With Disabilities v. Herrera, 257 F.R.D . 236, 251 (D. N.M. 2008)).
Indeed, to their credit, defendants themselves read ily ad mit that the Edwards plaintiffs
have "name[d] the Wisconsin Assembly and the W isconsin Senate as parties, meaning
there is no practical need to retain Speaker Vos and Majority Leade r Fitzgerald as
additional named Defendants here." (Leg. Defs.' Br. ('340, dkt. #13) 31.) Having been
p resented no legal or practical reason to grant immunity but retain Speaker Vos and
Majority Leader Fitzgerald as defendants, the court will dismiss them from this case. 16

II.

Motions for Preliminary lnjunction 17
T o mal<.e out a prima facie case for a preliminary injunction, a party must show ( l)

16

Defendants also move to dismiss the Edwards plaintiffs' claim for monetary damages under the
ADA A required element of a compensat01y damages claim for intentional discrimination under
Title II of the ADA is deliberate indifference. See Lary v. Cook Cry., Ill., 897 F.3d 847, 862-63 (7th
Cir.2018) . This requires both "knowledge that a harm to a federally protected right is substantially
likely" and "a failure to act upon that likelihood." Id. at 863 (quoting S .H. ex rel. Durrell v. Lower
Merion Sch. Dist., 729 F.3d 248, 263 (3d Cir. 2 01 3 )). The WEC and Legislative defendants both
argue that the Edwards plaintiffs do not assert a cognizable claim for ADA damages because they
failed to allege deliberate indifference explicitly. (WEC Defs.' Mot. to Dismiss Br. ('340, dkt. # 15 )
8; Leg. Defs.' Mot. to Dismiss Br. ('340, dkt. #14) 24.) Reading the Edwards plaintiffs' complaint
in the light most favorable to them, as this court must at the pleading stage, it is reasonable to infer
this claim based on their allegations that defendants have ( 1) knowledge of the past and planned
enforcement of Wisconsin's election laws, as well as the dangers posed by the COVID-19 pandemic,
and (2) have and are continuing to fail to act on that likelihood. Thus, plaintiffs have alleged
sufficient facts to support their implicit claim for deliberate indifference and survive the defendants'
motions to dismiss. Of course, whether or not there was or is likely to be a violation of the ADA,
much less a deliberate one, remains to be proven. Finally, as to defendants' remaining grounds for
dismissal based on plaintiffs' failure to plead sufficient allegations to support their claims as a matter
of law, the court will address these arguments in its substantive consideration of each of plaintiffs'
claims in the discussion that follows .

In addition to the parties' briefs, the court received two amicus briefs from Common Cause (dkt.
#251) and the American Diabetes Association ('340 dkt. #23). The policy of the Seventh Circuit
is to "grant permission to file an amicus brief only when: ( 1) a party is not adequately represented
(usually, is not represented at all); or (2) when the would-be a micus has a direct interest in another
17

65a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 33 of 69

irreparable harm, (2) inadequate traditional legal remedies, and (3) some likelihood of
success on the merits. Girl Scouts of Manitou Council, Inc. v. Girl Scouts of U.S. of Am., Inc.,
549 F.3d 1079, 1086 (7th Cir. 2008). If all three threshold requirements are met, the
court must then engage in a balancing analysis, weighing "the harm the plaintiff will suffer
without an injunction against the harm the defendant will suffer with one." Harlan v.
Scholz, 866 F.3d 754, 758 (7th Cir. 2017).

The court must also "ask whether the

preliminary injunction is in the public interest. " Id. "T he more likely the plaintiff is to
win, the less heavily need the balance of harms weigh in his favor; the less likely he is to
win, the more need it weigh in his favor." Roland Mach. Co. v. Dresser Indus., Inc., 749 F.2d
380, 387 (7 th Cir. 1984).

A. Anderson-Burdick Analysis

In Anderson v. Celehrezze, 460 U.S. 780 ( 1983), and B urdick v. Takushi, 504 U.S. 428
( 1992), the Supreme Court set forth a balancing test to determine whether an election law
unconstitutionally burdens a citizen's right to vote. Under the Anderson-B urdick test, a
court m ust weigh "the character and magnitude of the asserted injury to the rights" against
"the precise interests put forward by the State as justifications for the burden imposed by
its rule." B urdick, 504 U.S . at 434 (quoting Anderson, 460 U.S . at 789). 18

case, and the case in which he seeks permission to file an amicus curiae brief, may by operation of
stare decisis or res judicata materially affect that interest; or (3) when the amicus has a unique
perspective, or information, that can assist the court of appeals beyond what the parties are able to
do. " Nat'[ Org.for Women, Inc. v. Scheidler, 223 F.3d 615,617 (7th Cir. 2000). Following that same
policy, the court concludes that these parties fall into the latter category, will grant their respective
motions, and has considered their proposed briefs.
18

As a group, plaintiffs also invoke four additional, legal claims: ( 1) T itle II of the Americans with

66a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 34 of 69

The Seventh Circuit recently applied and elaborated on this merits test in its longawaited decision in Luft v. E vers, 963 F.3d 655, considering a series of challenges to
Wisconsin's election laws, including some of the provisions at issue in this litigation.
Fundamentally, the Luft court cautioned that the burden of a specifically challenged
election provision must be considered against "the state's election code as a whole" -- that
is, by "looking at the whole electoral system," rather than "evaluat[ing] each clause in
isolation." Id. at 671. Luft further "stressed" that "Wisconsin's system as a whole is
accommodating." Id. at 674. At the same time, the court reaffirmed its earlier holding
that "the right to vote is personal" and, therefore, "the state must accommodate voters"
who cannot meet the state's voting requirements "with reasonable effort." Id. at 669.
Having already addressed at length the scope of the state's constitutional obligation
to accommodate voting rights during the COVID-19 pandemic in its April 2, 2020,
decision (4/2/20 Op. & Order (dkt. # 170 ) 26-28), which was largely left unchallenged on
appeal to the Seventh Circuit, Democratic Nat'l Comm. v. Bostelmann, Nos. 20-1538, -1546,
-1545, (7th Cir. April 3, 2020), and U.S. Supreme Court, R epublican Nat'l Comm. v.
D emocratic Nat'l Comm. , 589 U.S. __ (2020) (per curiam), the court simply adopts it

Disabilities Act, 42 U.S.C. § 12132; (2) the Mathews v. Eldridge, 424 U.S. 319 (1976), procedural
due process balancing test; (3) the Equal Protection Clause's guarantee against arb itrary election
administration; and (4) section 11(6) of the Voting Rights Act ("VRA"). The latter three legal
claims either prove a poor fit for the relief plaintiffs are seeking, or plaintiffs fail to describe how
these standards would advance their claims beyond the Anderson-Burdick test. Thus, for reasons
add ressed at the close of this opinion, the court concludes that plaintiffs have failed to demonstrate
any likelihood of success on the merits as to those claims for relief beyond that available under the
Anderson-Burdick test. Finally, three of the cases before the court also pursue claims for injunctive
relief under T itle II of the Americans with Disabilities Act ("ADA"), 42 U.S.C. § 12132. At the
hearing, plaintiffs specifically relied on the ADA to advance two of the requests for relief, to enjoin
or modify the witness signature requirement and to provide an accessible, o n line absentee ballot.
The court add resses those challenges where relevant below.

67a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 35 of 69

again by reference. Instead , in considering plaint iffs' requests for injunctive relief w ith
respect to the November election, the court will stress the th ree, core concerns that drives
its analysis here.
First, the court is mindful, as it must be, that "[c]ou rt orders affecting elections,

especially conflicting orders, can themselves result in voter confusion," and "[a ]s an
election draws closer, that risk will increase." Purcell v. Gonzalez, 549 U.S. l, 4-5 (2006).
In weighing the individual requests for relief, the court must consider the risk that any of
its actions may create confusion on the part of voters, either directly or indirectly, by
creating additional burdens on the WEC and local election officials. To ameliorate tha t
risk, the cou rt has generally attempted to issue a decis ion fa r enough in advance to allow
an appeal of the court's decision, provide sufficient time for the WEC and local election
officials to implement any modifications to existing election laws, and to communica te
those changes to voters. Issuing the decision now, six weeks out, rather than two weeks as
in the April election , does not come without its tradeoffs: the court must make certain,
reasonable projections about what the pandemic and o ther events relevant to voting will
be like by late October and early November. O f course, the court would prefer to be
making these decisions with a more complete u nderstanding of the record of voter behavior
during that time, but that lm.'111")' does not exist. On the other hand, the court has a m uch
better understanding of the likely impacts of the pandemic on voting behavior, as well as
the State of Wisconsin 's capacity to address them, than it did in March.
Second, the court will focus solely on how the COVID- 19 pandemic presen ts unique

challenges to W isconsin's election system and burdens Wisconsin voters. The court is not

68a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 36 of 69

interested in plaintiffs' general challenges to Wisconsin elections, because those challenges
have now been largely addressed in Luft or, to the extent left open, remain subject to further
proceedings before Judge Peterson. On the other hand, the court rejects the Legislature's
attempts to paint plaintiffs' claims as purely facial challenges, arguing that specific
ind ividuals who face insurmou ntable burdens d ue to the COVID-1 9 pandemic could bring
as-applied challenges for relie f at a later date. Still, recognizing that the line between a
facial and an as-applied challenge can be hazy, see Ctr. for Individual Freedom v. Madigan,
697 F.3d 464, 475 (7th Cir. 20 l 2), plaintiffs' claims here are only viable to the extent they
constitute as-applied challenges and, in particular, are compelling after fairly e:ll..1:rapolating
from relevant voters' and local election officials' experiences during the pandemic in April
to prove near certain burdens in November, particularly with respect to the availability of
mail-in absentee, early absentee and in-person voting options.
To the extent that some of the relief requested -- for example, the extension of
certain deadlines -- is substantial likely to provide needed relief to Wisconsin voters and
poll workers burdened by the pandemic's impact, and even likely to "severely restrict" an
ind ividual's right to vote, the state may still articulate "compelling interests" for the
challenged election laws and prove those laws have been "narrowly tailored." Luft, 963
F.3d at 672. As to other req uested relief, plaintiffs seek "safety nets" to ensure that the
state is protecting the "personal" natu re of the right to vote. Frank v. Walker, 8 19 F.3d
384, 386 (7th Cir. 2016) ("Frank II"); Luft, 963 F. 3d at 677-78 (reaffirming Frank II
hold ing that "voting rights are personal," req uiring "that each eligible person must have a
path to cast a vote") . Regardless of how it is characterized , the relief requested by plaintiffs

69a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 37 of 69

must be consistent with the Seventh C ircuit's d ecisions in Luft and Frank II. The rub, as
d escribed in d etail below, is whether pla intiffs have submitted sufficien t evide nce from
which this court must conclude tha t certain individuals are unlikely to be able to exercise
their right to vote despite reasonable effort.

Third, while the court will take up each o f plaintiffs' requested item s o f relief, after

Luft, the court must consid er each request in ligh t o f the election system as a whole. Here,
the court principally considers the interplay between the W EC's, local officials' a nd vo ters'
expressed preference for absen tee voting by ma il in this elect ion compared to the historic,
overwhelming p reference for in-person voting. Obviously, ensuring that ma il-in, absentee
voting is a tenable option fo r the ma jority o f the electorate who are expected to vote this
way in Novembe r, whether based on the W EC's strongly-stated preference or on personal
risk assessmen ts, will d ecrease the n umber o f individuals who will need to vo te in-person .

In turn, this will help ensure tha t there are adequa te a nd safe, in-person voting sites for
individuals unable or u ninterested in voting by mail, whether because of a personal
p reference to exercise the ir right to vote in person o r because of d ifficulties in p rovid ing
the necessa1y p hoto ID , obta ining a required witness signature, o r negotiat ing the U. S.
mail system ., Even so,, to the e:>..'ten t the State has had more time to address those issues
before th is election and chosen no t to address them by virtue of a lack o f political will or
simple inertia, the court w ill o nly gra nt relief where this fa ilure to act in the face of the
pandemic is substantially likely to severely restrict the righ t to vote.
W ith those consideratio ns in mind, the court addresses plaintiffs' requests for
p reliminary injunctive relief in the following, four categories: registration , absentee vo ting,

70a
70a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 38 of 69

in-person voting, and miscella neous relief.

1. Registration
a. Extending Registration D eadlines
The DNC plaintiffs seek an order enjoining Wisconsin Statute § 6.28( l ), which
requires a mail-in registration to be received by the clerk or postmarked no later than the
third W ed nesday preceding the election (here, October 14), and requires electronic
registrations to be received by 11:59 p.m. on the third Wed nesday preceding the election.
DNC argues that the court should exte nd both deadlines to the Friday before the election,
October 30, to align with the deadline for registering in person before election day. As the
D NC points out, the court granted similar, prelim inary relief to that req uested by plaintiffs
here before the April election, extending the mail-in postmark date a nd electronic
registration receipt deadline by 12 d ays to the Friday before the election. (3/ 20/20 O p. &
Order (dkt. #37) 10-15.)
However, the six weeks lead ing up to this election are d ifferent than the week or
two before the Ap ril 7 election, w hen the pandemic was a new phenomenon and demanded
swift ad justments to the timetable to accommodate voting from the safety of one's home,
rather than venturing out into the public. As defendants persuasively argue, ind ividuals
are now sufficiently on notice of the pandemic's risks, its impacts on their daily lives, and
measures that can be taken to reduce those risks. So, to the extent individuals wish to
register electronically or by mail to facilitate later voting by mail, defend ants argue that
voters must plan accordingly and complete their electronic and mail-in registrations by the
established deadline of October 14 .

71a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 39 of 69

Of course, what the Legislature originally afforded as a convenience to in-person
registration and voting has, a t least for this election, become a necessity for some, as well
as an important tool for WEC and local officials to reduce the number of people voting in
person on the day of the election. Even more to the point, as WEC Administrator Wolfe
testified at the hearing, registering in person o n the day of the election not only risks lo nger
lines, but increases the amount of time individuals are inside polling stat ions, as well as
requiring person-to-person engagement in two separate processes, which are further
prolonged by the additional, C OV ID-1 9 protections of social distancing and masking.
(8/5/20 H r'g T r. (dkt. #532) 60-61, 98-100 .) Facilitating early registratio n electronically
and by ma il will not only limits sustained interactions on election day, but will allow some,
significant number of unwary individuals sufficient time to request absentee ballots and
vote by mail (or by d rop-off), rather than voting in person befo re or on the day of the
election.

For these reasons, WEC Administrator Wolfe testified at the hearing, the

tradition of having a significant nu mber of individuals register in person on the day of the
e lection is incompatible with the goal of -- and projected, significant demand for -- voting
by mail via absentee ballot. (Id. at 57.) Cutting off electronic and mail-in registrations
three weeks before the election will not just thwart efforts to encou rage W isconsin voters
to vote by mail via absentee ballots, but increase the burdens a nd risks on those choosing
to vote in person. This is especially true in light of Wisconsin's "cultural tradition" of
registering on election day, with more than 80% of registered voters having engaged in that
process in the past. (Id. at 58 .)
Still, the recognized health benefits of driving the electorate to mail-in registration

72a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 40 of 69

and absentee voting is probably insufficient alone to justify this court modifying an
established deadline for doing so. The difference in April, and again this November, is the
sheer number of new registrations and absentee voters who will rely on the U.S. mail to do
so, especially as compared to past elections, and the risks of severely restricting that option
during the pandemic for those who will come to the realization that the window has closed
too soon for them to register and request an absentee ballot. Unless some relief is provided
to the October 14 deadline, the likelihood of tho usands of voters missing this window and
choosing not to vote in person is quite high, a nd while that eventuality may be present in
any election, the risks expand to tens of thousands of voters in the midst of the pandemic.
For these reasons, plaintiffs have demonstrated that d iscontinuing electronic and mail
registration options precipitously on October 14 will likely restrict many Wisconsin
citizens' freedom to exercise their right to vote, at least without having to take unnecessa1y
risks of COVID-1 9 exposure by registering in person, and fo r some significant minority of
citizens, will severely restrict that right because of age, comorbidities or other health
concerns. See Luft, 963 F.3d at 671 - 72 ("Only when voting rights have been severely
restricted must states have compelling interests and narrowly tailored rules.") (citations
omitted).

In contrast, the only interest in enforcing the October 14 deadline articulated by
the defendants is providing sufficient time for election officials to prepare voter records.
As WEC Administrator Wolfe testified at the hearing, however, this deadline could be
extended an additional week until October 21, 2020, while still providing sufficient time
for local election officials to print poll books. (8/5/20 Hr'g Tr. (dl(t. #532) 62.) Indeed,

73a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 41 of 69

the record reflects that local election officials were able to accommodate the court's April
2020 extension of electronic registration by 12 d ays before the April election without
significa nt impact of local officials' ability to manage in-person voting. (Id. at 63-64; see
also DNC Pls.' PFOFs (dkt. #419) ,r 194. )
Accordingly, the court concludes that plaintiffs have su fficiently demonstrated that
the current electronic and mail-in registration deadline of October 14, 2020, will
substantially (and in a smaller, but sign ificant group, severely) restrict the right to vote
during the ongoing pandemic, particularly after considering the likely impact of increased,
in-person registration on the orderly, safe functioning of voting on Election Day .
Moreover, by moving the deadline only one week to October 21st, rather than the twoweek extension requested by plaintiffs, the court has amply accoun ted for any arguable
state interest in allowing sufficient time to prepare voter records.

Finally, w ith this

accommodation, the court finds that the balance of interests weighs heavily in favor of
plaintiffs as to this narrow relief.

b. Proof-of-Residence Requirement
The DNC plaintiffs also seek an order enjoining the proof-of-residence requirement
under Wisconsin Statute§ 6.34(2) for individuals who attest under penalty of perjury that
they cannot meet the requirement after reasonable e fforts. During the evidentia1y hearing,
the D NC plaintiffs ad<nowledged that they do not have a ny declarations establish ing an
actual instance of a voter being unable to meet this requirement. (8/5/20 H r'g T r. (dkt.
#532) 200.) In light of the record evidence, this is unsurprising, since it is fairly easy to
satisfy the requirement. For those requesting an absentee ballot electron ically, a drive r's

74a
74a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 42 of 69

license also satisfies the proof-of-residence requirement. (8/5/2 0 H r'g Tr. (dkt. #532) 80
(Wolfe testifying that " [i]f someone registers to vote online, they do not need to provide
proof o f residence because the match wi th t heir OMV record fulfills tha t requirement") .)

If a person wishes to register by mail or early in person, a utility bill would su ffice, and the
voter would not even need to provide a copy of it. For some individuals, this requireme nt
still may constitute a burden -- fo r example , as the D NC plaintiffs a rgued a t the hea ring,
there may be college students not on a lease o r o n utility accounts -- but this is alwqys the
case a nd not specific to the pandemic. 19 Finally, as the Seventh C ircuit recognized in Luft,
there is a significant state interest in ensuring that individuals are vo ting in their proper
d istricts. Luft, 963 F.3d at 676. O n this record, therefore, the court concludes that
plaintiffs are not likely to succeed in demonstrating that the p roof-of-residence
requirement substantially bu rdens the right to vote or that this burden ou tweighs the
State's interests , even in light of the circumstances surrounding the COVID- 19 pandemic.

2. Absen tee Voting
a. Counting of Absentee Ballots
NeA.1:, the Edwards and Swenson plaintiffs seek an order enjoining W isconsin
Statute §§ 6.88, 7 .5 1-.52, which require that absentee ballo ts not be counted before
election day. Plaint iffs argue that this requirement thwarts local election officials' ability
to address defects in absentee ballots -- particularly a voter's failu re to comply with the

While the DNC plaintiffs propose use of "an affidavit" as a possible "safety net," Frank II, 8 19
F.3d at 387, they fall short of proposing specific lan guage, much less describing how this exception
would be administered. Regardless, the court is concerned about adding any additional burd ens on
the WEC's electronic registration process or on the stretched resources of local election officials.
19

75a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 43 of 69

witness certification requirement. If the court were to enjoin this requirement and allow
counting before the election day, then local election officials could find defects, contact
voters and give them a chance to fix them before it is too late.
The court is not persuaded by this argument. As the Legislatu re explains, Wisconsin
law already provides procedures for absentee ballot voters to correct errors. Indeed , the
errors typically will occur on the outside of the envelope, and therefore, it need not be
opened , nor must the ballot be counted for an election official to alert a voter of a witness
certification error or some other defect. Regardless, the court agrees with the Legislature
that plaintiffs' proposed solution is a poor fit for the general problem of absentee ballot
errors. Finally, pla intiffs' arg ument is insufficiently tied to the particular circumstances
surrounding the pandemic. Indeed , to the extent that plaintiffs pursue this injunction to
facilitate efficient counting of absentee ballots, the court's e:>..'tension of the absentee ballot
receip t deadline sufficiently addresses this concern.

If anything, by precluding early

counting of absentee ballots during a period when they are likely to comprise 60 to 75%
of all ballots cast, the state's interest in securing the tallying process u ntil after the election
is closed is stronger. On this record, the court finds no basis to grant relief.

b. Witness Sign ature Requirement
All four plaintiffs next seek an order enjoining the w itness signatu re requ irement
under Wisconsin Statute § 6.87(2), although the plaintiffs again suggest various
replacements for this requirement.

I n essence, the DN C plaintiffs seek to enjoin this

requirement for those individuals who ( l ) attest under penalty of perjury that they cannot
meet the requirem ent after reasonable efforts , (2) sign a form and provide contact

76a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 44 of 69

information, and (3) cooperate with local election officials who may follow-up. The DNC
argues that this process would satisfy Frank II and Luft. The Edwards plaintiffs similarly
request that the court allow the small population of people who cannot secure a witness to
sign a sworn statement to that effect. Next, the Gear plaintiffs propose an order following
the Seventh Circuit's opinion reviewing this court's April preliminary injunction by
allowing voters to write in the name and address of a witness bu t not require a signature.
Finally, the Swenson plaintiffs argue that self-certification should be sufficient to satisfy
the State's interest.
In support of their various req uests for relief from a witness signature, plaintiffs
submit substantive evidence in the form of affidavits from individ uals who recount
d ifficulties they encountered in obtaining or attempting to obtain a witness signature
d uring the April election.

(See, e.g. , DNC Pls.' PFOFs (dkt. #419)

,i,i

157-60 (citing

declarations).) Plaintiffs also assert that the proposed alternatives in the April election
(e.g., have someone witness it via a video call or through a wind ow) obviously d id not work
in light of the roughly 14,000 ballots that were rejected because of insufficient witness
certifications, and further suggest that some portion of the 135,000 unretu rned ballots
were not su bmitted because voters could not secure a witness.
While acknowledging the possible burden that the witness signature requirement
will place on some voters, the Seventh Circuit reversed this court's entry of preliminary
relief from this requirement for the April 2020 election .

D emocratic Nat'/ Comm. v.

Bostelmann, Nos. 20-1538, -1546, -1545, (7 th Cir. April 3, 2020). Moreover, it did so even

though the arguable need was greater then, given ( 1) the compressed period for election

77a
77a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 45 of 69

officials to adjust to the COV ID-19 restrictions, (2) increased u ncertainty as to how the
virus spreads a nd risks of con tracting it, and (3 ) the d ramatic increase in first-time absentee
applications and voters.

Further, the Seventh Circuit faul ted this court for giving

inadequate weight to the State's interests behind the w itness requirement and vacated that
portion of this court's preliminary injunction, rather than merely modifying it to require a
more robust affidavit o r a witness, but no signature. Finally, the Supreme Court recently
signaled its own reticence to set asid e such state law requiremen ts by staying the effect of
an Eleventh Circuit decision blocking photo -I D and witness-signat ure requiremen ts fo r
absen tee ballots. See Merrill v. People First ofAla., No. l 9Al 0 63 (U.S . July 2, 2020 ).
T o the extent, the Seventh Circuit left room for o ther possible workarou nds to the
w itness-signatu re requirement, the W EC has again p roposed a numbe r of options for any
voters having difficulty meeting the requirement for safety o r other reasons all of which
would allow a voter to maintain a safe d istance from the witness. See W EC, "Absentee
Witness

Signature

Requirement

Guidance"

(Mar.

29,

2020),

https:// elections.wi.gov/ node/6790. G iven a g reater u nderstanding as to the efficacy of
masks and social distancing in s ubstantially lowering the risk of transmitting the virus (and
the seemingly reduced risks of its transmittal on surfaces than by aerosols), t hese options
also appear more viable and safe for ind ividuals wishing to vote via absentee ballot than
they did in April; albeit for some, the requirement may still present a significant hurdle.
Finally, under Purcell, there remains the challenge of fashioning and implementing an
effect ive exceptio n to this requirement in the shorter period for voting via absentee ballot
in terms of: drafting an appropriate form, publicizing the option, managing its distribution

78a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 46 of 69

to voters who cannot meet the requirement, and effecting the return of that fo rm.
Viewing the election system as a whole, including the flexibility surrounding this
requirement, coupled with additional options for voting in perso n, either early or o n the
day of the election, the court concludes that plaintiffs have fa iled to demonstrate a
sufficient likelihood of success in proving that the burden placed on so me voters by this
requirement outweighs the State's interests and possible d isruption in the orderly
processing of an u nprecedented number of absentee ballots. Accordingly, the court will
deny this request for relief under Anderson-Burdick.
As noted above, some of the plaintiffs assert claims under the ADA as well. At the
hearing, the Swenson plaintiffs specifically argued that relief from the witness signature
requiremen t was warran ted in light of the ADA. To establish a violation of the ADA, a
plaintiff "must prove that he is a 'qualified individual with a d isability,' that he was denied
'the benefi ts of the services, programs, or activit ies of a public en t ity' or otherwise subjected
to discrimination by such an entity, and that the denial or d iscrim ination was 'by reason
of' h is d isability." Love v. Westville Corr. Ctr., 103 F.3d 558,560 (7th C ir. 1996 ) (quo ting
42 U .S.C. § 12 132). A defendant's "fa ilure to make reasonable modifications in policies,
practices, or procedures can constitute discriminatio n under T itle II." Lary v. Cook Cry.,
897 F.3d 847, 853 (7th Cir. 2018) (citing 28 C. F.R. § 35. 130(b)(7 )(i)3).

An

accommodation is reasonable if "it is both efficacious a nd proportional to the costs to
implement it." Oconomowoc Residential Programs v. Ciry ofMilwaukee, 300 F.3d 775, 784 (7th
C ir. 2002).

The ADA, however, does not require a modification that would

"fundamentally alter the nature of the service, program, or activity." P.F. by A.F. v. Taylor,

79a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 47 of 69

914 F.3d 4 67,472 (7th C ir. 2 01 9) (quoting 2 8 C .F.R. § 35.130(b)(7)(i)) .
Here, for the same reason that the court concluded the risks of ad m inistering an
affidavit, self-cert ifying or o ther program outweigh the b urden o n voting rights, t he court
also concludes that the recommended accommodation is no t reasonable u nder the ADA,
because it is not "efficacious a nd proportio nal to the costs to implemen t it." Oconomowoc
R esidential Programs, 300 F.3d at 784. As such , plaint iffs have not shown a likelihood of

success in proving that the witness sig nature requiremen t violates the ADA.
c. Receipt Deadline of Absentee Ballots
Next, the D NC plaint iffs a nd the Swenson plaintiffs seek a n o rder enjoining the
requiremen t that absen tee ballots must be received by election day u nder W isconsin
Statute § 6.87(6), u rging instead that the ballots again be postmarked by election day to
be counted. In its p rio r opin ion and o rder, the court extended the deadline fo r receipt of
mailed-in absentee ballots u n til the Monday after the election day. On appeal, the Seven th
C ircuit upheld this same extension, as d id the U. S. Supreme Court, except for requiring
that the return envelope be postmarked before or on election day.
T he reasons for the court's extension of the deadline fo r receipt of mailed-in
absentee votes for the April 2 0 20 electio n applies with almost equal force to the u pcoming
November 2020 election. The W EC is now projecting 1.8 to 2 million individuals will
vote via absen tee ballot, exceeding the number of absen tees by a facto r of three fo r any
p rior general, presidential electio ns and exceeding by as much as a millio n the number o f
absen tee voters that overwhelmed election officials d uring the April 20 2 0 elect io n. As the
cou rt d iscussed during the A ugust 5th hearing, W isconsin 's electio n system also allows

80a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 48 of 69

individuals to request ballots up to five days before the election. While this deadline has
worked for the most part during a normal election cycle, the same statut01y deadline is
likely to disenfranchise a significant number of voters in the November election given the
projected, record volume of absentee ballots. On top of the sheer volume of absentee ballot
requests that election officials found difficult to manage, the record also establishes that
the USPS's delivery of mail has slowed due to budget constraints or other reasons, and will
undoubtedly be overwhelmed again with ballots in November, as they were in April.
Regardless of cause, plaintiffs have established significant problems with fulfilling
absentee ballot requests timely, and even greater problems in getting them back in t ime to
be counted. Indeed, those problem s would have resulted in the disenfranchisement of
some 80 ,000 voters during the April election but for this court's ent1y of a prelimina1y
injunction, and there is no evidence to suggest that the fundamental causes of these
problems have resolved or will be resolved in advance of the November election . To the
contrary, the WEC acknowledges that the unprecedented numbers of absentee voters will
again be very challenging for local election officials to manage in the compressed time frame
under current law despite their best efforts to prepare for and manage this influx, and they
have no reason to expect any better performance by the USPS.20

20 This

is not to denigrate the on going efforts of the small staff at WEC and efforts of local election
officials, nor of postal workers, just to reflect the systemic issues that will arise in a system never
meant to accommodate massive mail-in voting. Indeed , in addition to its e fforts to encourage
staffing up locally, WEC worked with USPS to add bar codes to absentee ballots, but without
increased USPS personnel or automated tracking equi pment, this is unlikely to change the speed
of receipt of applications or absentee ballots, much less receipt of executed ballots. At best, it may
help to better track how thousands of applications and votes became misplaced long after
completion of the November election.

81a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 49 of 69

In response, the Legislature argues that individuals should request ballots now, so
that they can receive, complete and mail them back well in advance of the statutory
deadline, which requires receipt on or before election day. The court whole-heartedly
agrees that Wisconsin voters should proactively manage their voting plans, request
absentee ballots online or by mail now (or as soon as possible thereafter), if they wish to
vote by absentee ballot, and then diligently complete and return them well in advance of
the election. Everyone -- the WEC, the Legislature, other elected officials, a nd the polit ical
parties a nd a ffiliated groups -- should be advocating for a nd to a large extent are advocating
for such action, although the latter entities are more targeted at best and subject mischief
at worst. Nonetheless, given the sheer volume expected this November, there remains little
doubt that tens of thousands of seemingly prudent, if unwa1y , would-be voters will not
request an absen tee ballot far enough in advance to allow them to receive it, vote, a nd
return it for receipt by mail before the election day deadline despite acting well in advance
of the deadline for requiring a ballot.
While the Legislature would opt to disregard the voting rights of these so-called
procrastinators, Wisconsin's election system sets them up for failure in light of the near
certain impacts of this ongoing pandemic. If anything, the undisputed record demonstrates
that unwa1y voters who otherwise reasonably wait up to two weeks before the October 29,
2020, deadline, to request an absentee ballot by mail face a significant risk of being
disenfranchised because their executed, mailed ballot will not be received by officials on or
before the current election day deadline.

Moreover, it is particularly unreasonable to

expect undecided voters to exercise their vot ing franchise by absentee ballot well before the

82a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 50 of 69

end of the p residential campaign, especially when the Wisconsin's sta tuto ry deadline is
giving them a false sense of confidence in timely receipt.
Not really d isputing the magnitude of this risk in light of the vast, unprecedented
n umber of absentee ballots received after the deadline in April, the Legisla ture instead
argues that a sim ilar extension this time will somehow undermine the state's interests in
having promp t election results. Even this argument rings hollow during a pandem ic, but
it also ignores that some fo urteen states, other than Wisconsin and the District of
Columbia, follow a postmark-by-election-day rule (or a close variant ) and count ballots
that arrive in the d ays following the election, so long as they are timely postmarked. (D NC
Pis.' Su pp. PFOFs (dkt. # 5 01 ) 11 19.) As such , Wisconsin w ill not be an anomaly.
Furthermore, by including a postma rk-by-election-day requirement, there is no concern
that initial elect ion results will influence a voter's decision . Moreover, unlike in April, the
court will not require election officials to refrain from publishing results until after the
extended absentee ballo t d ead line, since that requirement was only added because of this
court's original decision not to include a postmark deadline. With the guidance of the
United States Sup reme Court that a postmark deadline is warranted, any concern about
early release of elect ion results is mitigated .
Finally, while not addressed by defendants, plaintiffs offered evidence that the
election day receipt requirement actually furthered the state's interest in completing its
canvass d uring the April election. Regard less, W EC Administrator Wolfe testified that
election officials were able to meet all post-election canvassing deadlines notwithstanding
th is court's six-day extension of the dead line in April, and the extension gave election

83a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 51 of 69

officials time to tabulate and report election results more efficiently and accurately. (D NC
Pls.' PFOFs (dkt. #419) 11 195 .) Nor have defendants identified any other predicted o r
unforeseen a nomalies arise because of this extension. On the contrary, as previously
discussed, there is strong evidence that as many as 80 ,000 voters' rights were vind icated
by the extension in the primary election, and a reasonable extrapolatio n for the general
electio n could well exceed 100,000 .
Thus, on this record, the court concludes that pla int iffs have shown a likelihood of
success in demonstrating the risk of disenfranchisement of thousands of Wisconsin voters
due to the elect ion day receipt deadline outweighs any state interest during this pandemic.
Accordingly, the court will grant this request, extending the receipt deadline for absentee
ballots until November 9, 2020, but requiring that the ballots be mailed and postmarked
on or before election day, November 3, 2020 .2 1

The court is mindful that the addition of a postmark requirement by the U.S. Supreme Court
created some unin tended consequences in April 2020, since a small proportion of the absentee
ballots returned by mail lacked a legible postmark, apparently as a result of processing anomalies at
local post offices. The court was hopeful that the planned use of intelligent mail barcodes ("IMB")
would assuage this concern, although it appears that the presence of IMBs on most return envelopes
is uncertain, if not w1likely. To the extent that the use of IMBs does not resolve tl1is issue, the
WEC will again need to provide guidance to local election officials, as it did for the April election.
Given the political deadlock among WEC Commissioners and the apparent lack of state law
guidance on this subject -- as well as the fact that this postmark requirement is federally mandated
and the apparent importance of equal treatment of ballots after Bush v. Gore, 531 U.S. 98 (2000)
-- it is this court's view that local election officials should generally err toward counting otherwise
legitimate absentee ballots lacking a definitive postmark if received by mail after election day but
no later than November 9, 2020, as long as the ballot is signed and witnessed on or before
November 3, 2020, unless there is some reason to believe that the ballot was actually placed in the
mail after election day. See Shiflett v. U.S. Postal Serv., 839 F.2d 669, 672 (Fed. Cir. 1988)
(discussing prior version of regulation when timing was triggered by mailing of appeal to the Merit
Systems Protection Board, explaining that"[ t)he date of a filing by mail shall be determined by the
postmark date; if no postmark date is evident on the mailing, it shall be presumed to have been
mailed 5 days prior to receipt"); Wells v. Peake, No. 07-913, 2008WL5111436, at *3 (Vet. App.
Nov. 26, 2008) (relying on prior regulation where timing of appeal was triggered by its mailing, to
21

84a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 52 of 69

d . Electronic Receipt of Absentee Ballots
T he Gear, Edwards and Swenson plaintiffs further request an injunction preventing
enforcemen t of Wisconsin Statute § 6.87(3)(a), which limits delivery of absentee ballots
to mail only for domestic civilian voters, while m ilitary and overseas civilian voters can
receive an absen tee ballot by fax or email delivery, or can even access a ballo t electronically,
then download and print it. Wis. Stat. § 6.87(3)(d) . As explained above, Judge Pete rson
invalidated this ban on email delive1y of absentee ballots for dom estic civilians in One
Wisconsin Institute, 198 F. Supp. at 946-48, bu t that order was reversed by the Seven th

Circuit's decision in Luft. Regardless, for the roughly four-year period of time that this
court's order was in place, local election officials were given the option to email or fax
absentee ballots to voters to ensu re timely and efficient delivery.
Plaintiffs' renewed request for this relief is limited to those voters who timely
request an absentee ballot (having already timely submitted their photo ID and registered
by mail), had their requests processed and an absentee ballot mailed to them, but because
of issues with the U SP S (or for some other reason), the voters did no t actually receive a n
absentee ballot by mail in a timely fashion. The record is replete with such exam ples from
the April 2020 election. (See Swenson Pls.' PFOFs ('459, dkt. #42) ,i,i 5 1, 164, 176 (citing
declarations); D NC Pls.' PFOFs (dkt. #4 19) ,i 73 (citing declarat ions); Edwards Pls.'
PFOFs (dkt. #4 17 ) ,i,i 67 -162, 177-8 1) (citing declarations); Gear Pls.' PFOFs (dkt. #422)

explain that "[s] ince there was no postmark, the BVA applied 38 C.F.R. § 20.305(a), which
presumes the postmark date to be five days before the date VA receives the document, excluding
Saturdays, Sundays, and legal holidays").

85a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 53 of 69

1111 37, 43, 8 1, 157-677 (citing declarations) .) 22

In response, the Legislature argues generally that there are no special circumstances
here to warrant granting this relief, even temporarily.

The record strongly suggests

otherwise. Specifically, the evide nce is nearly overwhelming that the pandemic does present
a unique need for relief in light of: ( l ) the e:>.'Perience during the Spring election, (2) much
greater projected numbers of absentee ballot requests and votes in November, and (3)
ongoing concerns about the USPS's ability to process the delivery of absentee ballot
applications and ballots timely . None of this was remotely contemplated by the Legislature
in fashioning an election sys tem based mainly in person voting, nor addressed by the
Seventh Circuit's recen t decision in Luft.

Moreover, the relief requested is narrowly

tailored only to those voters who timely fulfilled all of the necessary steps to vote by mail,
but were thwarted through no fa ult of their own. Indeed, this is exactly the " l % problem"
that the Seventh C ircuit indicated requires a safety net in both Luft and Frank II. The Gear
plaintiffs further suggest that the court limit it to the week before the deadline for
requesting absentee ballots, which for this election is October 29, 2020. Up until that
deadline, voters may request a replacement ballot by mail.

See Wis. Stat. § 6.86(5)

(e>-'Plaining process fo r requesting an absentee ballo t ).
The Legislature also argues that this solution may create significant administrative

The Swenson plaintiffs a lso request online ballot delivery for individuals with print disabilities
under the ADA While this request may have merit, plaintiffs have fa iled to explain adequately
why the current options have proven inadequate in past elections or how the pandemic creates
sufficient, additional burdens to warrant relief. Given the n umerous requests for relief in these
consolidated cases, the court m ust remain focused on those requests for which the need and solution
are clear and circumstances surrow1ding the pandemic in particular warrant an injunction.
22

86a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 54 of 69

hurdles for local election officials, specifically citing to the need by local election officials
to recast the absentee ballot into a form that is readable by voting machines. However,
local e lection officials themselves represent that this inconvenience is outweighed by the
benefit of having fewer, in-person voters on election day . (Gear Br. (dkt. #421) 42.) Plus,
Wisconsin has a four-year history when fax or electronic delivery was available to all voters
at the discretion of local election officials without incident.

In contrast, the court's

injunct ion will only apply to a narrow subset of those voters for whom an absentee ballot
was not received timely by mail, who afterwards request a replacement ballot in the week
leading up to the deadline for making such a request, and satisfy local election officials of
the need for an alternative means of delivery. For all these reasons, this limited relief
should not overtax election officials' abilities to administer the November election.
Finding that plaintiffs are likely to succeed on their claim that limiting receipt of
absentee ballots to mail delivery burdens voters' rights who fail to receive their absentee
ballot timely, and that this burden is not outweighed by the interests of the State, the court
will gran t that relief. As set forth below, however, the ban on allowing online access to
replacement absentee ballots or emailing replacement ballots is only lifted for the narrow
period from October 22 to October 29, 2020, as to those voters who timely requested an
absentee ballot, the request was approved, and the ballot was mailed, but the voter did not
receive the ballot in time to vote. For the limited number of disabled who truly require an
electronic ballot to vote effectively under the ADA, a nd have failed to discern an effective
means to vote using a hard absentee ballot, after meeting all the same requirements set
forth above for all vote rs, this may also provide an alternative.

87a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 55 of 69

e. M ail Absentee Ballots to All Registered Voters
Finally, with respect to absentee ballots, the Edward s plaintiffs seek a n order
requiring the WEC to send out absentee ballots to all registered voters, or a t least to all
voters who previously voted absen tee. This request was not pursued at the hearing, a nd
for good reason , since it is neither narrowly tailored to the alleged violations to voting
rights caused by the pandemic, nor considers the substa ntial bu rden it would place on the
WEC and local election officials who have already begun responding to actual applications
for absentee ballots. The court, the refore, d enies this request.

3 . In-Person Voting
a. Early In-Person Voting
Plaintiffs further seek several injunctions relating to in-person voting. To begin, the
Edwa rds plaintiffs seek to enjoin Wisconsin Statute § 6.86( l )(b ), which limits in-person,
absentee voting to the period beginning 14 days before the electio n and ending the Sunday
before the election. This request warrants little d iscuss ion because the Edwards plaintiffs
failed to d evelop the record as to why a 12-d ay period is not sufficient to provid e voters an
adequate opportunity to vote early in-person. Viewing the election system as whole, a twoweek period for in-person, early voting, is sufficient to protect voters' constitutional rights,
especially when considered in light of a robust mail-in absentee voting option a nd what
will hopefully be a generally safe and ad equa te, in-person voting opportunity on the d ay of
the election.

b. Selection of Early In-Person Voting Sites
The Edwards and Swenson plaintiffs also seek to enjoin Wisconsin Statute §

88a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 56 of 69

6.855 ( l ), which requires municipalities to designate in-person, absentee voting site or sites
(other than the clerk of board of election commiss io ners' office) 14 days before absentee
ballots a re available fo r the primary. For the November election, this means the required
designations were due by June 11 , 2020. Pla intiffs contend that e:xtend ing this deadline
would ( 1) allow increased flexibility a nd (2) reduce crowds and encourage social d ista ncing
by allowing extra sites added. Here, again, plaintiffs have failed to develop a ny record to
find that addit ional, in-person voting sites are necessai.y to meet the demand of voters who
wish to vote in person before the election day, especially g iven that voters may d o so over
a 12-day period of time. Accordingly, the court will also deny this request.

a. Photo ID Requirement
The DNC a nd Edwards plaintiffs both seek an order enjo ining the photo ID
requirement unde r W isconsin Statute § 6.87 ( l ), although the contours of the relie f
requested are d iffere nt: the DNC plaintiffs seek to enjoin the requirement for those
individuals who attest under penalty of perjui.y that they cannot meet those requirements
after reasonable efforts; while the Edwards plaintiffs seek to en jo in the requirement for
people with disabilit ies if they swear that they are unable to obtain the required ID.
The D NC's request fo r relief from the photo ID requiremen t falters fo r simila r
reasons as plaintiffs' request for relief from the proof-of-res idence requirement. When
pressed at the hearing, the D NC pla intiffs listed four declarations from ind ividuals who
they represented were not able to vote in the April 2020 election because of the ID
requireme nt. From the court's review of these four declarations, only one -- the declaratio n
of Shirley Powell ( dkt. #341) -- actually provides support fo r the requested relief. Powell

89a

Case: 3:20-cv-00249-wmc Document#: 538 Filed: 09/21/20 Page 57 of 69

avers that she at tempted to request an absentee ballot by mail, but could not do so because
she did not want to leave her house to obtain the necessary copy of her photo ID . (Id. ,i
5 .) 23 That proof falls well short of a substantial burden on her right to vote.
For their part, the Edward plaintiffs simply direct the court to a report about the
d ifficulty in obtaining photo IDs for the 2016 election, offering neither evidence specific
to the COVID- 19 pandemic nor proof of a ny unique bu rdens it places on disabled voters
under the ADA. While the court acknowledges that some voters like Powell may encounter
difficulty in u ploading a photo of their ID or obta ining a hard copy, this burden has likely
diminished since April 2020, given both the additional time voters will have to obtain the
necessa1y documents to request an absentee ballot electronically or by mail, cou pled with
the increased awareness of how COVID-19 spreads and efforts one can tal,e to avoid
transmission u pon leaving the house.24
Even if not entitled to broader relief, plaintiffs argue, the creation of a "safe harbor"
or "fail-safe" measure is called for by the Seventh Circuit's decisions in Luft and Frank II.
H owever, the court concludes that, while not a perfect solution, the "indefinitely confined"
designation under Wisconsin Statute § 6.87(4)(b)2 provides such relief already for those

The other individuals -- Sue Rukamp, Sharon Gamm and Marlene Sorenson -- simply averred
that they encountered difficulty in uploading a photo of their ID o r submitting a hard copy via
mail, but it appears that all three were eventually able to request an absentee ballot. (Dkt. ##349,
294, 355.) Not to diminish the burdens that they encountered, their declarations do not support
providing relief from the photo ID requirement. Instead, the d ifficulties that they encountered are
more appropriately addressed in providing electronic delivery of ballots for those individuals who
do not timely receive absentee ballots by mail and by extending the deadline for receipt of absentee
ballots to account for USPS delays. Both forms of relief are granted below.
23

Of course, the court is not definitively concluding such a burden cannot be proved, just that
plaintiffs have not begun to proffer evidence of their likelihood of doing so given the work-arounds
now available.

24

90a
90a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 58 of 69

unique individuals who are both ( l ) not able to upload a photograph of their ID or obtain
a copy and (2) avoiding public outings because of legitimate COVID -19 concerns.
Apparently a nticipating this outcome, plaintiffs further argue that if the court relies
on the "indefinitely confined" status as a safety net for the photo ID requirement, then it
should also define that term and direct the WEC to provide this definition in its materials
expla ining and promoting voting via absentee ballot. As it concluded in its earlier opinion
and order, however, the plain la nguage of the statute, coupled with the WEC's March 2020
guidance that the term "does not require permanent or total inability to travel outside of
the residence" provides sufficient, albeit imperfect, information to guide voters' use of that
safe harbor. See Wisconsin Election Commission, Guidance for Inde.finite!JJ Corifined Electors

COVID-19 (Mar. 29, 2020) ), https://elections.wi.gov/node/6788 .
On this record, therefore, the court concludes that plaintiffs have failed to
demonstrate a likelihood of succeeding in their claim that the COVID -19 pandemic
am plifies the typical burden of requiring a photo ID, so as to outweigh the State's
repeatedly recognized interest in doing so. Because the court relies on the "indefinitely
confined" option as a safety net or fail-safe for those legitimately unable to meet this
requirement, however, the court will direct the WEC to include on the MyVote website
(and on any additional materials that may be printed explaining the "indefinitely confined"
option) the language provided in their March 2020 guidance, which e:xplains that the
indefinitely confined exception "does not require permanent or total inability to travel
outside of the residence."

91a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 59 of 69

b. Election Official Residence Requirement
Next, the Edwards and Swenson plaintiffs seek to enjoin Wisconsin Statute
§ 7.30(2), which requires that each election o fficial be an elector o f the county in which

the municipality is located. This request has significant more traction in light of the record.
In part icular, based on her past experience and unique perspective, Administrator Wolfe
testified that her biggest worry in the administration of the November election is a lack o f
poll workers for in-person voting on election day. (8/5/2 0 H r'g T r. (dkt. #532) 83.) Both
for the April and August 2 0 20 elections, local municipalities stmggled to recruit and retain
sufficient poll workers, which resulted in some localities being severely limited in provid ing
in-person voting opportunities .

In fact, even with substantially greater warning and

opportun ity to plan, local election officials still had difficulty securing adequate people for
W isconsin's much smaller August 2020 election. (Id. at 82-83.) At m inimum, elim inating
the residence requirement would p rovide g reater flexibility across the state to meet
unanticipated last-minute demands fo r staffing due to COVID-19 outbreal<.s or fear.
In response, the Legislatu re simply argues that this requirement furthers the State's
interest in promoting a decentralized approach to election managemen t.

W ithout

discounting the value of this in terest, if a county or municipality lacks sufficient poll
workers and wishes to recm it workers from o ther locations within the state, including
accessing National Guard members who reside o utside of their community (should the
Governor choose to answer the repeated call by local officials to make them available
sooner rather than later), the mun icipality o r cou nty has already conced ed its inability to
maintain that interest while still conducting a meaningful electio n, a t least w ith respect to

92a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 60 of 69

the loca tion of res idence of poll workers. Regardless, in ligh t of the record evid ence
de monstrating that recruitmen t of poll workers will present a tricky and fluid barrier for
adequate in-person vo ting options up to and during election day, plaintiffs have
de monstrated a likelihood of success in p roving tha t this requirem en t will burden their
righ t to vote a nd that this burd en outweighs any state interest in maintaining the
requirement over exp ressed , local need .. As s uch , the court will grant this requested relief
during the ongoing pandemic.
c. Ensure Safe and Adequate In-Person Voting Si tes
The D N C a nd Swenson plaintiffs seek an order requiring the WEC to provide safe
and ad equa te, in-person voting options, includ ing ( l ) adequate voting sites with sufficient
number o f poll workers, and (2) in1plementation of safety protocols like PPE, masks, social
distancing requirem en ts, hand washing a nd sanitizing steps. While the court agrees, and
more importan tly the WEC and , in turn, local election officials agree, tha t these are
appropriate steps to be taken , the court sees no basis to order this requested relief.
Specifically, the WEC has earmarked $4. l million to provid e increased safety
measures at locations and has also d esignated $500,000 to secure and distribute sanitation
supplies. WEC also is providing p ublic health guidance and training to local election
officials. Pla intiffs fail to d escribe how these measurers fall short. As for the concern abou t
the number of voting locations, as p reviously d escribed , local election officials in
Milwaukee a nd Green Bay, in particular, have ind icated their intent to ope n significantly
more polling locations than tha t opened in Ap ril. Again, considering the election system
as a whole, including the WEC's, local officials', and now the court's efforts to ensure

93a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 61 of 69

robust absentee voting options, the court concludes tha t plaintiffs have fa iled to
demonstrate that the W EC and local election officials' efforts to d ate with respect to
ensuring safe and adequate election-day voting sites are inadequa te .

4 . Requests for Miscellaneous Relief
Finally, the Swenson plaint iffs p ropose a n umber of other a reas of relief, which all
involve ordering the W EC to do more or d o better. Specifically, the Swenson plaintiffs
seek orders requiring the WEC to: ( l ) upgrade electronic voter registration systems and
absentee ballot request systems; (2) engage in a public education drive; (3) ensure secure
drop boxes for in-person return of absentee ballo ts; and (4) develop policies appl icable to
municipal clerks regard ing coord inating with USPS to ensu re timely delivery of and retu rn
of absentee ballots. Again, all of these are worthwhile requests, but the record reflects tha t
the WEC is taking such steps or, at least, that a court order to the sam e effect is unlikely
to do more before November 3 than hamper the ongoing state and local efforts. For
example, in its June 25 , 2020, report to the court, the WEC detailed its efforts to upgrade
M yVote and WisVote, as well as provide federal funds to help municipalities with their IT
needs. Moreover, the WEC described its development of various voter outreach videos,
guides and surveys to help educate voters on unfamiliar aspects of voting. Further, as the
Legislature points o ut, Wisconsin Statute § 6.869 already requires the WEC to prescribe
uniform instructions on absentee voting. As for the request for more drop boxes, the WEC
is provid ing funding from the CARES Act to municipalities to provide such boxes. Finally,
as described above, the W EC is working with the U SPS to implem ent intelligent m ail
barcodes to track absentee ballots .

94a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 62 of 69

To the extent ma il delivery issues persist despite these steps, the cou rt has a ttempted
by entry of the order below to accommodate these concerns by permitting online access,
by emailing and faxing of absentee ballots for those individuals who do not receive their
requested absentee ballots timely, a nd by extend ing the absentee ballot receipt date.
Plaintiffs' further req uests for relief are either too vague to be meaningful or unnecessary
because the WEC is already taking such steps.

B. Alternate Claims for Relief U nder the Due Process and Equal Protection
Clauses and Voting Rights Act
As already d iscussed, constitu tional challenges to laws that regulate elections are

generally analyzed under bala ncing test set forth by the U.S. Su prem e Court in the

Anderson-Burdick test. See, e.g., Crawford v. Marion Cry. Election Bd., 553 U.S. 18 1, 190
(2008); Luft, 963 F.3d at 671; see also Samuel Issacharoff et al., The Law of Democrary 92127 (5th ed. 2016) (reviewing the general constitutional framework for challenges to
election laws affecting the righ t to vote). T his balancing test is rooted in both the First
and Fourteenth Amend ments to the U.S. Constitution. See Burdick, 504 U.S. at 434 (citing

Anderson, 460 U .S. at 788-89).

In interpreting the Supreme Court 's election law

ju risprudence, the Seventh Circuit has concluded that theAnderson-Burdick test "applies to

all First and Fourteenth Amend ment challe nges to state election laws." Acevedo v. Cook Cty.
Officers Electoral Bd., 925 F.3d 944, 948 (7th Cir. 2019) (emphasis in original); see also
H arlan v. Scholz, 8 66 F.3d 754, 759 (7th Cir. 2017) (the Anderson-Burdick framework
addresses "the constitutional rules that apply to state election regulations").
As expla ined during oral argument, th is court is exceed ingly relucta nt to apply more

95a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 63 of 69

generalized constitutional tests to the election laws challenged here, at least w ithout a
specific legal a nd factual basis to do so. I ndeed, in its order preceding completion of
briefing a nd oral arguments o n the motions for prelimina1y in junction, the court suggested
that to proceed on claims u nder other constitutional frameworks, plaintiffs must
adequately d istinguish such claims from those brought under Anderson-B urdick.
6/10/20 O p . & O rder (dkt. #217) 14-15 .)

(See

Without ever adequately addressing this

concern, some plaintiffs nevertheless maintain that this court should venture outside of
the Anderson-B urdick framework a nd consider their claims under alternative procedural due
process and equal protection clause standards.
Specifically, plain tiffs urge the court to apply the more general procedural due
process balancing test articulated in Mathews v. Eldridge, 424 U.S. 319 (1976). That test
requires the court to balance: ( l ) the interest that will be affected by the state action ; (2)
the risk of erroneous deprivation of this interest through the procedures used by the state
and the probable value, if a ny, of addit ional procedural safeguards; and (3) the state's
interest, including the fiscal and administrative burdens that the addit ional procedure
would entail. Id. at 340-49. The Swenson plaintiffs contend that theAnderson-B urdick and
Mathews tests are "analytically d istinct" because "[t]he focus of the p rocedural due p rocess

inquiry is what process is due before a statutorily protected liberty or property interest is
deprived." (Swenson Pls.' Br. ('459, dkt. #41) 4 7 n .188.) Similarly, the DNC plaintiffs
contend that "Anderson-B urdick balances burdens on voting rights against states'
justificatio ns, while due process claims focus o n the sufficiency of the process involved
before the S tate deprives someone of their right to vote." (D NC Pls.' Br. (dkt. #420) 55.)

96a

Case: 3:20-cv-00249-wmc Document #: 538 Filed : 09/21/20 Page 64 of 69

D uring initial briefing, no plaintiff could cite to any case law to support the nuanced
differences suggested by their respective positions. T o the contrary, the D NC plaintiffs
acknowledged that "we have not yet found a decision in which a court accepted an
Anderson-Burdick claim while rejecting a due process challenge to the same provision; or

rejected an Anderson-Burdick challenge while striking down the same provision as violating
due process." (D NC Br. (dkt. #420) 54.) Since then, plaintiffs have pointed to three,
recent election cases in which a d istrict court applied the general Mathews test to election
law challenges, all of which were considered in the con text of the current pandemic. (See
Notice of Supp. Au thority (dkt. #536) (citing The New Georgia Project v. Rajfensperger, l :20cv-01 986-ELR (N .D. Ga. Aug. 31, 2020)); Notice of Supp. Authority (dkt. #534) (citing
Frederick v. Lawson, No. 19-cv-01959, 2020 W L 4882696 (S.D. Ind. Aug. 20, 20 20 ));

Notice of Supp. Authority (dkt. #523) (cit ing Democraiy N.C. v. N .C. State Bd. of Elections,
No. 20-cv-457 (M.D .N .C. Jul. 27, 2020 )) .) However, even these cases fa il to address the
overlap between the Mathews and Anderson-Burdick standards, much less the exclusive role
played by the latter test in the U .S. Supreme Court's overall election law jurisprudence,
thus providing little guidance as to the role, if any, of the Mathews test here. Accordingly,
plaintiffs have not convinced this court that in the claims before it, a n independent a nalysis
u nder the Mathews test is necessa1y, much less appropriate.25
As for the equal protection claims, plaintiffs rely on the standard articulated by the

The DNC plaintiffs themselves admit that the "Anderson-Burdick and Mathews v. Eldridge analyses
are both multi-factor balancing inquiries ... and the results of the inquiries may often be the same."
(DNC Pis.' Br. (dkt. #420) 55.)
25

97a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 65 of 69

Supreme Court's per curiam decisio n in Bush v. Gore, 5 3 1 U. S. 98 (2000). T here, the
Sup reme Court explained that a state "may not, by later arbitrary and d isparate t reat me nt,
value one person's vo te over that of a no ther." Id. a t 104-05.26 Notwithstanding tha t the
Supreme Court took u nusual pains to limit its "conside rat ion" specifically to the "present
circumstances" surround ing the 2000 Florida recount, id. at 109, o ther courts have
ap peared to rely on Gore in a tt empting to analyze subseque nt election challenges. See, e.g.,
Raleigh Wake CitizensAss'n v. Wake Cry. Bd. of Elections, 82 7 F.3 d 333,337 (4th C ir. 2016)

(redistricting) ; OhamaforAm. v. H usted, 697 F.3d 423, 428- 29 (6th C ir. 20 12) (restrictio ns
on early vo ting); Idaho Coal. United for Bears v. Cenatrusa, 3 42 F.3d l 0 73, l 077 & n.7 (9 th
Cir. 2003) (ballo t-initiative process).
Even if applicable, however, the Legislative defendants persuasively poin t out that
this stand ard requires plaintiffs to prove tha t the arbitrary and d isparate treatment is a
result of specific election "procedures." B ush, 53 1 U.S. a t l 05. H ere, the alleged disparate
trea tm ent is rooted in poll closings and poll-worker shortages, lack of adequate personal
protective equipment at some polling locations and d isparate treat ment regarding vo ter
registratio n a nd req uests for absentee ballo ts. Arguably, therefore, these allegations are not
rooted in specific "proced ures" at all. Even if they were, plaintiffs again fail to e:x.rpla in
adequately wha t additional relief would or should be affo rded under the equal protection

P laintiffs a lso included a variety of facts regarding the disparate impact o f COVID- 19 o n
particular groups seeking to vote, such as specifi c racial minorities and the elde rly. W ithout
denigrating this impact in a ny way, plaintiffs' equal protection claim is premised on a gen eral
"arbitrary treatmen t" theory, rather th an an argumen t that de fendan ts' actions specifically
discriminated against a particular protected class of voters, maki ng many o f t hese facts not relevant
to, and thus not referen ced further in, th e court's discussion .
26

98a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 66 of 69

clause that is not already available under Anderson-Burdick.
Finally, in addition to these constitutional arguments, the Swenson plaintiffs assert
a claim u nder Section 11 (b) of the Voting Rights Act ("VRA"), which provides in relevant
part that "[ n ]o person, whether acting under color of law or otherwise, shall intimidate,
threaten, or coerce, or attempt to intimidate, threaten, or coerce any person for voting."
52 U.S. C. § 10307 (b) . The Swenson plaintiffs argue that defenda nts' inadequate response
to the pandemic means that voters are intimidated to vote in person, for fear of catching
COVID- 19. (Swenson Pls.' Br. (dkt. #41) 25.) Although admitted ly a creative argument,
such an interpretation seriously stretches the purpose and common-sense meaning of
section 11 (b) .
The VRA was signed into law in 1965 against the backdrop of the civil rights
movement and state resistance to enforcement of the Fifteenth Amendment. See general!JJ
D ep't

of

Justice,

History

of Federal

Voting

Rights

Laws

(July

28,

2017),

h ttps://www.justice.gov/crt/histo1y -federal-voting-rights-laws. While other sections of the
VRA had enormous consequences on voting rights -- particularly section 2, which prohibits
discriminatory voting practices, and section 5, which provides for federal "preclearance" of
election changes in states with a history of discriminato1y practices -- relatively little case
law has explored the scope of section 11 (b). See Ben Cady & Tom Glazer, Voters Strike
Back: Litigating Against Modern Voter Intimidation, 39 N .Y.U. Rev. L. & Soc. Change 173,

190 (2015).

Considering this background, there is no evidence that Congress

contemplated extending the VRA to impose liability on states that do not take adequate
action to reduce citizens' "intimidation" of in-person voting due to an infectious virus.

99a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 67 of 69

Moreover, the plain language of the statute itself suggests that the intimidat ion must be
caused by a "person," not a d isease or other natural force. Further, the part ies disagree
over whether sectio n 11 (b) requires a mens rea -- plaintiffs argue that it does not, the
Legislature argues that it does -- and no definitive answer is found in case law. I n light of
these various considerations and uncertainties, 11 (b ) also appears a poor fi t for a nalyzing
the issues presented in this case, and the court fi nds that plaintiffs have presented no
likelihood of success on the merits of their claims under the VRA as well.

ORD ER
IT IS SO ORDERED:
l ) Common Cause Wisconsin's motion for leave to file a brief as amicus curiae
('249 dkt. #251; '2 78 dkt. # 186; '340 dkt. #51; '459 dkt. #75) is GRANTED .
2) Plaintiffs D emocratic National Committee and D emocratic Party of Wisconsin's
motion for preliminary injunction ('249 dkt. #252) is GRANTED IN PART
AND DEN IED IN PART as explained above and set forth below a nd in the
separate preliminary injunction order.
3) The Wisconsin Legislature's motion to d ismiss the Gear complaint ('278 dkt.
#382) is DENIED.
4) Plaintiffs Sylvia Gear, et al. 's motion for p reliminary injunction ('278 dkt. #304)
is GRANTED IN PART AND D ENIED IN PART as e>rpla ined above and set
forth below and in the separate preliminary injunction order.
5) D efendants Scott Fitzgerald, Robin Vos, Wisconsin State Assembly, a nd
Wisconsin State Senate's motion to dismiss the Edwards complaint ('340 dkt.
# 12) is GRANTED IN PART AND DEN IED IN PART. Pla intiffs' claims
against Scott Fitzgerald and Robin Vos are DISMISSED. In all other respects,
the motion is denied.
6 ) D efendants the WEC Commissioners and Adm in istrator's motion to dismiss the
Edwards complaint ('340 dkt. # 14) is DENIED.
7) American Diabetes Association's motion for leave to file an amicus curiae brief
('340 dkt. #23) is GRANTED.

100a
100a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 68 of 69

8) Plaintiffs Ch1ystal Edwards, et al. 's motion for prelimina1y injunctio n ('340 dkt.
# 195) is GRANTED IN PART AND DEN IED IN PART as explained above
a nd set forth below and in the separate preliminary injunction order.
9) The W isconsin Legislature's motion to dismiss the Swenson compla int (' 459
dkt. ##27, 272) is DEN IED.
l 0)

Plaintiffs Jill Swenson, et al. 's motion for preliminary injunction (' 459 dkt.
#40) is GRANTED IN PART AND DEN IED IN PART as explained above and
set forth below and in the separate preliminary injunction order.

11)

Defendants the Commissioners of the Wisconsin Electio n Commission and
its Administrator are:
a) Enjo ined from en forcing the deadline under W isconsin Statute§ 6.28(1),
for online and mail-in registration. The deadline is extended to October
21, 2020.
b) D irected to include o n the MyVote and W isVote websites (and on any
additional materials that m ay be printed explaining the "indefin itely
confined" option) the language provided in their March 2020 guida nce,
which e:xplains that the indefinitely confined exception "does not require
permanent or total inability to travel outside of the residence."
c) Enjo ined from e nforcing the deadline for receip t of absentee ballots under
Wisconsin Statute § 6.87(6), and the deadline is extended u ntil
November 9, 2020, fo r all ballots mailed and postmarked on or befo re
election day, November 3, 2020.
d) Enjo ined from enforcing Wisconsin Statute§ 6.87(3)(a)'s ban on delivery
of absentee ballots to mail only for domestic civilian voters, with that
lifted to allow online access to replacement absentee ballots or emailing
replacement ballots, for the period from October 22 to October 29, 2020,
p rovided that those voters who t im ely reques ted an absentee ballot, the
request was approved, and the ballot was mailed, but the voter did not
receive the ballot.
e) Enjo ined from enforcing W isconsin Statute § 7.30(2), to the extend
individuals need not be a resident of the county in which the municipality
is located to serve as election officials for the November 3, 2020, election.

101a

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 69 of 69

12)

T he preliminary injunction order is STAYED for seven days to provide
defendants and intervening defendan ts an opportunity to seek an emergency
appeal of a ny portion of the court's order.

Entered this 21st day of September, 2020 .
BY T H E COURT:

Isl
W ILLIAM M . CONLEY
D istrict Judge

